 Semiannual Report to Congress
  Office of Inspector General for the U.S. Department of Labor




Volume 70                                  April 1 – September 30, 2013
        A Message from the Inspector General
After being confirmed by the United States Senate, I assumed the position of Inspector General
for the U.S. Department of Labor (DOL) on November 4, 2013. I am honored to lead the Office
of Inspector General (OIG) and to work to improve DOL programs and operations. It is thus my
privilege to submit this Semiannual Report to the Congress, which highlights the most significant
activities and accomplishments of this office for the six-month period ending September 30, 2013.

During this reporting period, the OIG issued 30 audit and other reports that, among other things,
recommended that $440.4 million in funds be put to better use. The OIG also questioned approximately
$8.4 million in costs relating to DOL programs. Significant findings reported herein include the following:

• 	 Significant budget overruns in the Job Corps program, which ultimately resulted in the temporary freezing
    of student enrollment, were caused by a lack of managerial oversight by Employment and Training
    Administration senior leadership.
• 	 Additional guidance and oversight to employee benefit plans holding as much as $1 trillion in hard-to-value
    alternative investments are needed to protect retiree assets.
• 	 Job Corps contracts totaling $353 million were awarded on a sole-source basis when they should have
    been competed to ensure best value to the government.
• 	 The Mine Safety and Health Administration did not fully comply with federal laws and regulations and did
    not implement adequate internal controls while planning and organizing its biennial Mine Rescue Training
    Contests.

The OIG’s investigative work also yielded impressive results, with a total of 257 indictments, 293 convictions,
and $36.8 million in monetary accomplishments. Results highlighted in this report include that the following:

• 	 The founder and former president of the National Association of Special Police and Security Officers in
    Washington, D.C., was sentenced to 76 months in prison and ordered to pay restitution of more than
    $252,000 for stealing funds from the union’s pension plan.
• 	 The former president of Massey Energy Company’s Green Valley Resource Group was sentenced in
    West Virginia to 42 months of incarceration for his role in conspiring to impede MSHA inspections and to
    violate mine safety and health laws.
• 	 A Louisiana woman was sentenced to 57 months in prison for creating false identification documents and
    impersonating a federal Occupational Safety and Health Administration trainer.
• 	 A New Jersey man was sentenced to 27 months in prison and ordered to pay restitution of more than
    $1.6 million for his role in an Unemployment Insurance fraud scheme.

I look forward to working with the Department and Congress to ensure the effectiveness, efficiency,
and integrity of DOL programs and operations, and to combat labor racketeering in all its forms.




                                                                                                Scott S. Dahl
                                                                                            Inspector General
–




               Selected Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
               Significant Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

               Employment and Training Programs
    Contents   Employment and Training Grants . . . . . . . . . . . . . . . . . . . . . . . . . . 8
               Job Corps . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
               Foreign Labor Certification Program . . . . . . . . . . . . . . . . . . . . . . . 12
               Workforce Investment Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

               Worker Safety, Health, and Workplace Rights
               Mine Safety and Health Administration . . . . . . . . . . . . . . . . . . . . . 18
               Occupational Safety and Health Administration . . . . . . . . . . . . . . 21
               Wage and Hour Programs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

               Worker and Retiree Benefit Programs
               Employee Benefit Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
               Office of Workers’ Compensation Programs . . . . . . . . . . . . . . . . . 28
               Unemployment Insurance Programs . . . . . . . . . . . . . . . . . . . . . . 30

               Labor Racketeering
               Benefit Plan Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
               Labor-Management Investigations . . . . . . . . . . . . . . . . . . . . . . . . 40
               Internal Union Corruption Investigations . . . . . . . . . . . . . . . . . . . 42

               Departmental Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
               Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46

               Legislative Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . 48
               Appendices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52




                                                  Semiannual Report to Congress: April 1 – September 30, 2013
                                            Selected Statistics
             Investigative recoveries, cost-efficiencies, restitutions,
	
             fines and penalties, forfeitures, and civil monetary action .........$36.8 million

             Investigative cases opened .....................................................................248

             Investigative cases closed.......................................................................253
	

             Investigative cases referred for prosecution............................................204

             Investigative cases referred for administrative/civil action.......................106

             Indictments ..............................................................................................257
	

             Convictions ..............................................................................................293
	

             Debarments ...............................................................................................14




             Audit and other reports issued...................................................................30
             Total questioned costs .................................................................$8.4 million

             Funds recommended for better use1 .......................................$440.4 million

             Outstanding questioned costs resolved during this period2. .......$1.2 million
                Allowed ................................................................................. $0.5 million
                Disallowed .............................................................................$0.7 million
	



         1    The term “recommendation that funds be put to better use” means a recommendation by the OIG that funds could be used more
              efficiently or achieve greater program effectiveness if management took actions to implement and complete the recommendation.
              This term is defined by the Inspector General Act and includes, among other things: reductions in future outlays; deobligation of
              funds from programs or operations; costs not incurred in the future by implementing recommended improvements related to the
              operations of the establishment, a contractor, or grantee; and any other savings specifically identified, including reverting funds to
              the U.S. Treasury to be used for other purposes.
         2    As defined by the IG Act, questioned costs include alleged violations of law, regulations, contracts, grants or agreements; costs not
              supported by adequate documentation; or the expenditure of funds for an intended purpose that was unnecessary or unreasonable.
              Disallowed costs are costs the OIG questioned during an audit as unsupported or unallowable and the Grant/Contracting Officer
              has determined the auditee should repay. The Department is responsible for collecting the debts established. The amount collected
              may be less than the amount disallowed, and monies recovered usually cannot be used to fund other program operations and are
              returned to the U.S. Treasury.




2   Semiannual Report to Congress: April 1 – September 30, 2013
                                Significant Concerns
     The OIG works with the Department of Labor and Congress to provide information and recommendations
  that will be useful in their management or oversight of the Department. The OIG has identified the following
  areas of significant concern and particularly vulnerable to mismanagement, error, fraud, waste, or abuse.
  Most of these issues appear in our annual Top Management Challenges report required under the
  Reports Consolidation Act of 2000. The Top Management Challenges report can be found in its entirety at
  www.oig.dol.gov.



Protecting the Safety and Health                                in maintaining a cadre of experienced and properly
of Workers                                                      trained enforcement staff to meet its statutory
                                                                enforcement obligations. MSHA also faces challenges
With more than eight million establishments under               in establishing a successful accountability program,
the oversight of the Occupational Safety and Health             and some deficiencies continue to recur. MSHA has
Administration (OSHA), the OIG remains concerned                taken several steps in the past year to address findings
with OSHA’s ability to best target its compliance               found in previous audits and reports, but MSHA needs
activities to those areas where it can have the                 to continue its efforts to help ensure that miners are
greatest impact. OSHA carries out its enforcement               afforded all protections so they can safely return home
responsibilities through a combination of self-initiated        at the end of each work day.
and complaint investigations but can reach only a
fraction of the entities it regulates. Consequently,            Improving Performance Accountability
OSHA must strive to target the most egregious and               of Workforce Investment Act Grants
persistent violators and protect the most vulnerable
worker populations. We are also concerned with                  Another area of concern for the OIG is the
OSHA’s ability to measure the impact of its policies            Department’s ability to ensure that the Workforce
and programs and those of the 21 states authorized              Investment Act (WIA) grant programs are successful
by OSHA to operate their own safety and health                  in training and placing workers in suitable employment
programs.                                                       to reduce chronic unemployment, underemployment,
                                                                and reliance on social payments by the population it
Protecting the Safety and Health of                             serves. Our audit work over several decades, primarily
Miners                                                          as it relates to discretionary grants, has documented
                                                                the difficulties encountered by the Department in
The OIG is similarly concerned with the ability of the          obtaining quality employment and training providers;
Mine Safety and Health Administration (MSHA) to                 ensuring that performance expectations are clear
effectively manage its resources to meet statutory              to grantees and sub-grantees; obtaining accurate
mine inspection requirements, while successfully                and reliable data by which to measure and assess
administering other enforcement responsibilities. Our           the success of grantees and states in meeting the
audits have shown that MSHA remains challenged                  program’s goals; providing active oversight of the grant


                                                           Semiannual Report to Congress: April 1 – September 30, 2013   3
                                            Significant Concerns
	
making and grant execution process; disseminating                    Reducing Improper Payments
proven strategies and programs for replication; and,
most critically, ensuring that training provided by                  The Department’s ability to identify and reduce the rate
grantees leads to placement in training-related jobs                 of improper payments in the Unemployment Insurance
paying a living wage.                                                (UI), Federal Employees Compensation Act (FECA)
                                                                     and WIA programs continues to be a concern for the
Ensuring the Effectiveness of the Job                                OIG. Notably, the Office of Management and Budget
Corps Program                                                        (OMB) has designated the UI and WIA programs
                                                                     as being at risk for improper payments. For fiscal
The Job Corps program’s administrative and financial                 year (FY) 2013, the Department reported improper
management weaknesses and, in particular, recent                     payments totaling approximately $7.68 billion for the
budget overruns that affected program operations                     UI program, which are mainly the result of claimants
remain a significant concern for the OIG. In addition                who have returned to work and continue to claim UI
to identifying weak management oversight over                        benefits. OIG investigations also continue to uncover
program expenditures, our audits have found                          fraud committed by individual UI recipients who do not
that the Department is challenged in providing a                     report or underreport earnings, as well as fraud related
safe, residential and nonresidential education and                   to fictitious employer schemes. Similarly, we remain
training program which results in outcomes that                      concerned with the Department’s ability to identify
truly assist at-risk, disadvantaged youth (ages                      the full extent of improper payments in the FECA and
16 to24) in turning their lives around, including                    WIA programs. As highlighted in past OIG audits,
placement in training-related employment, entrance                   the estimation method used for the FECA program
into advanced vocational/apprenticeship training,                    does not appear to provide a reasonable estimate of
entrance into higher education, or enlistment in the                 improper payments. OIG investigations continue to
military. Over the years, the OIG has consistently                   identify significant amounts of FECA compensation
documented the Department’s difficulty in ensuring                   and medical provider fraud. For the WIA program,
the quality of residential life, a critical component of             the Department has attempted to identify the full
the Job Corps’ intensive intervention experience.                    extent of improper payments by including estimates
Specifically, our audits have disclosed safety and                   from other sources, but it should continue to consider
health hazards and physical maintenance needs                        other sampling methods in order to provide a more
at various centers as well as, in some instances,                    complete estimate of improper payments. Further,
a lack of enforcement of disciplinary policies. Our                  the Department needs to provide full disclosure in the
audits have also demonstrated the challenge the                      Agency Financial Report regarding the limitations of
Department faces in obtaining and documenting                        the data used to estimate WIA overpayments.
desired program outcomes. The OIG continues
to recommend that Job Corps provide rigorous                         Maintaining the Integrity of Foreign
oversight of contractors at all centers to: ensure                   Labor Certification Programs
they provide a safe environment that is conducive to
learning; improve the transparency and reliability of                The Department’s administration of the foreign labor
performance metrics and outcomes; and ensure that                    certification process, which permits U.S. businesses
center operators and other service providers provide                 access to foreign workers to meet their workforce
best value services to the government and comply                     needs while protecting the jobs and wages of U.S.
with applicable procurement requirements.                            workers, has been a concern the OIG has raised
4      Semiannual Report to Congress: April 1 – September 30, 2013
                                           Significant Concerns
	
since the mid-1990s. Our latest audit work continues              of their plans. EBSA is further challenged by the many
to identify the need for a more active, meaningful                changes that have taken place in the employee benefit
role for the Department in ensuring the integrity of              plan community since ERISA was enacted in 1974,
its foreign labor certification programs. Among our               such as the shift from defined benefit retirement plans
concerns is that DOL is statutorily required to certify           to defined contribution retirement plans, as well as
H-1B applications unless it determines them to be                 the large increase in the types and complexity of
“incomplete or obviously inaccurate.” In addition,                investment products available to pension plans. In
OIG audits and investigations have shown the H-1B                 fact, an audit of EBSA’s oversight of employee benefit
program to be susceptible to significant fraud and                plans that hold alternative investments totaling almost
abuse, particularly by immigration attorneys, labor               $3 trillion found that EBSA needs to do more to ensure
brokers, and transnational organized crime groups.                plan Administrator properly identify and value hard-to-
Our investigations have revealed schemes where                    value investments. In addition, beginning in FY 2014,
fraudulent applications were filed with DOL on behalf             key provisions of the Affordable Care Act (ACA) will
of fictitious companies, individuals, and unscrupulous            come into effect, and EBSA will be responsible for
businesses seeking to acquire foreign workers.                    ensuring plan sponsors and their benefit plans comply
Similarly, two audits of the H-2B program issued in               with the new law.
2011 and 2012 identified systemic weaknesses in the
self-attestation system used by employers in support              Securing and Protecting Information
of their labor certification application requests.                Management Systems

Ensuring the Security of Employee                                 Safeguarding data and information systems is a
Benefit Plan Assets                                               continuing challenge for all federal agencies, including
                                                                  DOL. Recent OIG audits have identified deficiencies
Limited enforcement authority and resources                       in configuration management, account management,
present challenges to DOL in achieving its mission                vulnerability management, as well as security and
of administering and enforcing Employee Retirement                access controls weaknesses in key departmental
Income Security Act (ERISA) requirements                          financial and support systems. These deficiencies
protecting approximately 141 million participants                 can pose an increased risk to the security of data and
and beneficiaries. Given the number of benefit plans              information maintained in DOL systems.
that the agency oversees relative to the number
of investigators, the Employee Benefits Security                  Ensuring the Effectiveness of Veterans’
Administration (EBSA’s) has to focus its available                Employment and Training Services
resources on investigations that it believes will most
                                                                  Programs
likely result in the deterrence, detection, and correction
of ERISA violations. Among EBSA’s challenges over
                                                                  Providing meaningful employment and training
the past couple of decades has been the fact that
                                                                  services to military veterans and members transitioning
billions in pension assets held in otherwise regulated
                                                                  to civilian employment remains a challenge for
entities, such as banks, escape audit scrutiny. These
                                                                  the Department. The Veterans' Employment and
concerns were renewed by recent audit findings that
                                                                  Training Service (VETS) issues grants to State
as much as $3.3 trillion in pension assets received
                                                                  Workforce Agencies to assist veterans in obtaining
these types of limited-scope audits, providing no
                                                                  and maintaining gainful employment. Our audits have
assurances to participants as to the financial health
                                                             Semiannual Report to Congress: April 1 – September 30, 2013   5
                                            Significant Concerns

found that VETS needs to do a better job of accurately
assessing veterans’ needs and documenting the
intensive services it provides, such as career planning
and counseling, to help veterans overcome significant
barriers to employment.


Improving Procurement Integrity

Ensuring the integrity of the Department’s
procurement activities is also of concern to the OIG.
Until procurement and programmatic responsibilities
are properly separated and effective controls are put
into place, DOL will continue to be at risk for wasteful
and abusive procurement practices. Our most recent
audits and investigations of DOL’s procurement
activities have identified the need for better control
and monitoring of procurement activities delegated
to program agencies.




6      Semiannual Report to Congress: April 1 – September 30, 2013
Employment and Training
      Programs
                              Employment and Training Programs


                 Employment and Training Grants
     The Department’s Employment and Training Administration (ETA) administers numerous grant programs
  pursuant to the Workforce Investment Act (WIA). WIA adult employment and training services are provided
  through formula grants to states and territories, or through competitive grants to service providers to design
  and operate programs for disadvantaged, often unemployed persons. ETA awards grants to states to provide
  reemployment services and retraining assistance to individuals dislocated from their employment. Youth
  programs are funded through grant awards that support program activities and services to prepare low-
  income youth for academic and employment success, including summer jobs. In addition, ETA administers
  the Senior Community Service Employment Program, which was authorized by the Older Americans Act to
  provide subsidized, service-based training for low-income persons aged 55 or older who are unemployed
  and have poor employment prospects. ETA also received funding as part of the American Recovery and
  Reinvestment Act of 2009 (Recovery Act).



Recovery Act: Required Employment                                    resulted in continued employment. We reviewed a
and Case Management Services Under                                   statistical sample of 255 participants in 8 states for
                                                                     the period from the Recovery Act’s inception through
the Trade and Globalization Adjustment
                                                                     the end of May 2012.
Assistance Act of 2009
                                                                     Our audit found that the surveyed states provided
Under the Recovery Act, the Trade and Globalization
                                                                     some of the services required by TGAAA, but could
Adjustment Assistance Act (TGAAA) reauthorized
                                                                     not demonstrate that they offered all eight case
the Trade Adjustment Assistance program (TAA) and
                                                                     management services. Our testing disclosed that all
required cooperating state agencies to make available
                                                                     255 sampled participants were eligible for the TGAAA
eight specific employment and case management
                                                                     program. However, files for 78 (31 percent) of them did
services to eligible workers who lost jobs due to
                                                                     not contain adequate documentation to support that
imports, outsourcing, or other trade policies. In June
                                                                     all employment and case management services were
2009, ETA distributed more than $455 million in
                                                                     offered. Although ETA issued guidance that states
additional TAA funds, $17 million of which was for
                                                                     must document the offering of these services, most
employment and case management services.
                                                                     states in our sample had not effectively implemented
                                                                     that guidance. As a result, participants may not have
We conducted a performance audit to assess the
                                                                     received all benefits to which they were entitled under
use of funds provided for employment and case
                                                                     the law to increase their opportunities for employment.
management services to determine whether states
offered eligible workers these services, whether ETA
                                                                     We also found that ETA could not demonstrate
could demonstrate that the additional funding resulted
                                                                     that additional funding for employment and case
in job placement and retention for participants, and to
                                                                     management services had resulted in job
what extent eligible workers who received services
or training were placed in training-related jobs that


8      Semiannual Report to Congress: April 1 – September 30, 2013
                             Employment and Training Programs

placement and retention for participants. ETA                   employment and case management services on the
implemented the Trade Activity Participant Reports              program impairs the ability of ETA, Congress, and
(TAPR) system in FY 2010 to streamline the TAA                  other stakeholders to make informed decisions about
program activities reporting structure and to track             the program.
and provide data as mandated by TGAAA. Our
review of both participant files and data elements in           We made four recommendations to ETA to improve
the TAPR database did not find clear evidence that              procedures, guidance, data validations, and
the employment and case management services had                 transparency related to the TGAAA program. ETA
resulted in job placement and retention. We found               agreed with the recommendations and described
certain data reported in TAPR were inaccurate or                planned actions, as well as actions already in process
not supported, and therefore were not reliable. This            to implement the recommendations. (Report No. 18-
lack of reliable data about the impact of the additional        13-003-03-33, August 6, 2013)



                                               Job Corps
     The Job Corps program provides residential education, training, and support services to approximately
  60,000 disadvantaged, at-risk youths, ages 16–24, at 125 Job Corps centers nationwide, both residential and
  nonresidential. The goal of this $1.7 billion program is to offer an intensive intervention to this targeted population
  as a means to help them turn their lives around and prevent a lifetime of unemployment, underemployment,
  dependence on social programs, or criminal behavior.



ETA Needs to Strengthen Controls over                           first five months of PY 2012 (July 1, 2012, through
Job Corps Funds                                                 November 30, 2012).


At the request of the then-Secretary of Labor Hilda             We found that a number of programmatic, budgetary,
Solis, we conducted a performance audit of Job                  and managerial factors caused Job Corps’ PY 2011
Corps’ internal controls over decentralized Job                 cost overruns. Job Corps could not demonstrate that
Corps contract operations nationwide. The Secretary             it had (1) established a sound budget or spending
had notified the OIG of cost overruns in Job Corps’             plan, (2) reconciled all Job Corps financial systems
program year (PY) 2011 operations that forced Job               to ensure that financial data were complete and
Corps to transfer $26.2 million from Job Corps’                 accurate, and (3) routinely monitored budgeted
Construction, Rehabilitation, and Acquisition (CRA)             costs to actual costs. At the beginning of PY 2011,
funds to its operations account. In January 2013 Job            Job Corps projected a shortfall in its operations
Corps imposed a 3-month enrollment freeze to avoid              funds and planned to cover the shortfall by using
a projected $61.5 million budget overrun for Program            PY 2010 surpluses and other amounts transferred
Year 2012. Our audit covered Job Corps funds and                from its PY 2011 CRA funds. However, as PY 2011
expenditures, including contracting activities, for PY          progressed, the PY 2010 surpluses did not materialize
2011 (July 1, 2011, through June 30, 2012) and the              and projected operating costs significantly increased,


                                                           Semiannual Report to Congress: April 1 – September 30, 2013   9
                              Employment and Training Programs

primarily from Job Corps’ erroneous exclusion of three               and communicating potential financial and program
center contracts, totaling $18 million, from its initial             risks; conducting a formal assessment of human
projected costs. In April 2012, an ETA budget analyst                capital resources needed for processes and internal
identified the cost overruns, triggering communication               controls over Job Corps funds; periodically reviewing
within Job Corps and ultimately to the ETA Assistant                 and updating the cost model policy to incorporate the
Secretary. The Secretary of Labor was notified in                    use of more current guidance and assumptions; and
May 2012, but options for addressing the matter were                 formally reconciling data between Job Corps–related
limited because the program year ended at the end                    systems on a routine basis. ETA agreed with the
of June 2012.                                                        recommendations, stating that a number of measures
                                                                     have already been taken and it has planned corrective
ETA implemented a number of oversight and cost-                      actions to address all of them. (Report No. 22-13-015-
saving measures once it became aware of Job                          03-370, May 31, 2013)
Corps’ PY 2011 funding problems. ETA instituted a
management oversight process to provide advice on                    Job Corps National Contracting Needs
short term and long-term planning and established the                Improvement to Ensure Best Value and
Office of Financial Administration (OFA), which was
                                                                     That Costs Are Justified
tasked with strengthening and coordinating existing
internal controls and with creating new controls
                                                                     The ETA Office of Contract Management executes
to monitor costs. OFA, in coordination with ETA’s
                                                                     Job Corps’ operational acquisition authority and is
Office of Contracts Management, was also tasked
                                                                     authorized to perform contracting for the Job Corps
with ensuring that Job Corps would more promptly
                                                                     national and regional offices. During 2006, this
and accurately account for costs incurred in its cost-
                                                                     acquisition authority was transferred from ETA to the
reimbursement contracts.
                                                                     Office of the Assistant Secretary for Administration
                                                                     and Management (OASAM), and in 2010 it was
During the first five months of PY 2012, Job Corps,
                                                                     transferred back to ETA. With the transfers of Job
ETA, the Office of the Chief Financial Officer, and
                                                                     Corps’ operational acquisition authority, both ETA
other DOL offices held frequent meetings to address
                                                                     and OASAM awarded Job Corps national contracts
PY 2012’s potential funding shortfall and other
                                                                     during that period. We conducted a performance audit
matters. While this oversight structure was used to
                                                                     of Job Corps’ national contracts to determine whether
address the immediate Job Corps funding issues,
                                                                     they were awarded, and costs were claimed, in
this type of oversight had not been established as
                                                                     accordance with Federal Acquisition Regulation (FAR)
departmental policy. Without adequate oversight and
                                                                     requirements. We reviewed 16 national contracts —
communication of funding issues to the agency head
                                                                     4 awarded by ETA and 12 by OASAM — as well as
and the chief financial officer, cost overruns could
                                                                     their associated claimed costs, that were awarded
reoccur, which would in turn require actions such as
                                                                     and managed by ETA and OASAM for the five-year
another moratorium on student enrollments.
                                                                     period from January 1, 2008, to December 31, 2012.
                                                                     These contract awards represented $466 million, or
We made six recommendations to ETA related to
                                                                     92 percent, of the total value of Job Corps’ national
improving internal controls over Job Corps funds
                                                                     contracts.
and expenditures, including establishing necessary
criteria and thresholds for detecting, documenting,


10     Semiannual Report to Congress: April 1 – September 30, 2013
                            Employment and Training Programs

Our audit found that ETA and OASAM awarded 10                   for these contracts without requesting the proper
sole-source contracts, totaling $353 million, citing            documentation as required by the contract clause
that only one responsible source responded to the               and, except for travel-related expenses, performed no
procurement posting. However, ETA and OASAM                     verifications in lieu of invoice documentation. These
could not support this assertion. In particular, for 8          deficiencies occurred because ETA and OASAM had
of these contracts, the Department stated that no               not established a control environment to ensure that
companies responded to the sources sought notice                contracts were awarded in accordance with applicable
posted in Federal Business Opportunities, but had               laws, policies, and procedures and that claimed costs
any responses been received, they would have been               were adequately validated. Based on our testing,
assessed to determine their capability to provide the           we questioned $351,207 in claimed costs for which
needed services. We believe the lack of response                contractors did not provide supporting documentation
to the sources sought notice was indicative of the              as required by ETA and FAR.
restrictive qualifications specified by OASAM. For
example, one of the qualifications required was that            For the other eight national contracts reviewed, in
the proposed contractors have direct access to a large          general we found claimed costs were supported and
nation-wide membership related to the trades and                had been reviewed by ETA. Based on our statistical
national and local apprenticeship programs, which               sampling of the $25 million paid to contractors in
ETA and OASAM stated was necessary for student                  FY 2011, we estimated that at least $24 million (96
success while in the program and after termination              percent) was adequately supported.
from the program. This requirement eliminated
potential competition because regional contractors              We recommended that ETA provide training and
that may have had superior apprenticeship and/or job            oversight to ensure compliance with FAR and DOL
placement records would not have been considered                requirements, develop standard operating procedures
because they do not have a national network.                    for requesting documentation before making
                                                                payments, and adhere to the internal control standards
We also found three competitively awarded contracts             of the federal government. ETA management agreed
totaling $38 million that were missing award                    that contractors had not provided proper evidence that
documentation from the contract. As a result of these           costs claimed and paid were valid. However, ETA and
findings, ETA and OASAM could not ensure that these             OASAM disagreed that sole-source justifications were
contracts were of best value to the government.                 inadequate and key documentation was missing from
Job Corps may achieve future cost savings if ETA                the contract files. ETA and OASAM did not provide
and OASAM improve their internal controls to                    additional information that changed our conclusions.
ensure contracting officers provide for full and open           Despite the disagreements, ETA management
competition in soliciting offers and awarding contracts.        accepted all four of our recommendations. (Report
                                                                No. 26-13-004-03-370, September 27, 2013)
In addition, claimed costs for Job Corps national
contracts were not always reviewed and supported as
required. For eight national training contracts awarded
sole-source, contractors submitted only monthly
spreadsheets for their claimed costs, not the required
invoice documentation. Job Corps paid $335 million


                                                           Semiannual Report to Congress: April 1 – September 30, 2013   11
                              Employment and Training Programs


             Foreign Labor Certification Program
     The Employment and Training Administration (ETA) administers a number of foreign labor certification
  (FLC) programs that allow U.S. employers to employ foreign workers to meet American worker shortages. The
  H-1B visa specialty workers’ program requires employers that intend to employ foreign specialty-occupation
  workers on a temporary basis to file labor condition applications with ETA stating that appropriate wage
  rates will be paid and that workplace guidelines will be followed. The H-2B program establishes a means
  for U.S. nonagricultural employers to bring foreign workers into the United States to meet temporary worker
  shortages. The Permanent Foreign Labor Certification program allows an employer to hire a foreign worker
  to work permanently in the United States.



New York Lawyer Sentenced for Role                                   immigration authorities granted legal status to David’s
in Massive Foreign Labor Visa Fraud                                  clients to which they were not entitled.


Earl David, a former immigration lawyer, was                         In connection with the scheme, 26 individuals have
sentenced on April 10, 2013, to 5 years in prison and                been charged. As of the publication of this report,
24 months of supervised release, and ordered to pay                  24 of those individuals have been convicted and 2
more than $2.5 million in restitution. David previously              remain fugitives.
pled guilty for his role in an immigration fraud scheme
involving the DOL foreign labor certification program.               This was a joint investigation with Immigration
                                                                     and Customs Enforcement–Homeland Security
From 1996 until early 2009, David operated a                         Investigations (ICE-HSI). United States v. Earl Seth
Manhattan-based immigration law firm that made                       David et al. (S.D. New York)
millions of dollars in fees from foreign-national clients
for purportedly securing them legal immigration status.              Colorado Man Found Guilty of Human
In return for fees of up to $30,000 per client, David’s              Trafficking and Foreign Labor Visa
law firm applied for and obtained thousands of DOL                   Fraud
labor certifications based on false employment
sponsorship and fabricated documents. David and                      Kizzy Kalu, a Colorado business owner, was found
his employees also recruited others to participate,                  guilty on July 1, 2013, of 89 counts of mail fraud,
including individuals who, in exchange for payment,                  visa fraud, human trafficking, and money laundering
agreed to falsely represent to DOL that they were                    for his role in an H-1B visa fraud scheme. Kalu’s co-
sponsoring foreign nationals for employment. David                   defendant, Philip Langerman, previously pled guilty
also enlisted the help of corrupt accountants, who                   for his role in the scheme.
created false tax returns for the fictitious employers,
and a corrupt DOL contractor, who helped ensure                      From 2008 through 2010, Kalu, through his companies
the DOL certifications were granted. As a result,                    Foreign Healthcare Professional Group and Advanced
DOL issued thousands of labor certifications, and                    Education and Training for Foreign Healthcare


12     Semiannual Report to Congress: April 1 – September 30, 2013
                            Employment and Training Programs

Professionals Group, LLC, recruited foreign nationals           residents. As a result, Sineneng-Smith received more
and on their behalf filed labor condition applications          than $3.3 million in payments from clients.
with DOL so they could obtain H-1B visas. As part of
the scheme, Kalu told the foreign nationals that they           This was a joint investigation with ICE-HSI, the Internal
would be working as nursing instructors/supervisors             Revenue Service–Criminal Investigation Division, and
for a local university, although the school existed in          the U.S. Postal Inspection Service. United States v.
name only. In reality, the workers were subcontracted           Evelyn Sineneng-Smith (N.D. California)
by Kalu’s company to work as nurses at long-term
care facilities.

Kalu also required the foreign nationals to sign a
contract that imposed a $25,000 penalty if they
ceased working for his company and threatened
others with cancellation of their H-1B visas if they
stopped working.

This was a joint investigation with U.S. Department
of State–Diplomatic Security Service and ICE-HSI.
United States v. Kizzy Kalu et al. (D. Colorado)


Former California Immigration
Consultant Convicted of Encouraging
Illegal Immigration and Mail Fraud

Evelyn Sineneng-Smith was convicted on July 30,
2013, of three counts of encouraging or inducing
illegal immigration for private financial gain and three
counts of mail fraud.

Sineneng-Smith operated an immigration consultation
business in San Jose, California, and exploited foreign
nationals for financial gain. From 2005 to 2007,
Sineneng-Smith advised foreign nationals, mainly
Filipino citizens who came to the United States on
visitors’ visas, to apply for labor certifications from
DOL as a path toward obtaining lawful permanent
residence. Sineneng-Smith filed hundreds of labor
certifications with DOL. She charged each of the
foreign nationals $5,900 to file a labor certification
knowing they would not qualify under existing
immigration regulations to become permanent

                                                           Semiannual Report to Congress: April 1 – September 30, 2013   13
                              Employment and Training Programs


                           Workforce Investment Act
    In FY 2013, the Department’s Employment and Training Administration (ETA) was appropriated
 $2.6 billion for the Workforce Investment Act (WIA) Adult, Dislocated Worker, and Youth programs. WIA adult
 employment and training services are provided through formula grants to states and territories, or through
 competitive grants to service providers to design and operate programs for disadvantaged, often unemployed
 persons. ETA also awards grants to states to provide reemployment services and retraining assistance to
 individuals dislocated from their employment. Youth programs are funded through grant awards that support
 program activities and services to prepare low-income youth for academic and employment success, including
 summer jobs.



Improvements Are Needed by the                                       Our audit found that the board met its performance
Northwest Pennsylvania Workforce                                     goals to provide WIA-funded services to participants
Investment Board to Ensure Services                                  to meet the workforce development needs of the
Are Documented and Participants Find                                 local area. Specifically, the board exceeded the
Jobs Related to the Training Received                                negotiated performance level for eight of its nine
                                                                     performance measures and met at least 80 percent
We initiated a performance audit of the WIA Title IB                 of the negotiated level for the remaining performance
programs operated by the Northwest Pennsylvania                      measure.
Workforce Investment Board and its fiscal agent, the
Regional Center for Workforce Excellence (RCWE).                     However, we found the board did not always ensure
This audit was in response to a request from a senator               that services-related data that case workers entered
and a member of the House of Representatives for                     into the L&I Commonwealth Workforce Development
a fiscal and programmatic audit of the board’s and                   System (CWDS) were supported by documentation
RCWE’s compliance with WIA. For program year (PY)                    in participant case files. CWDS automatically exits
2011 (July 1, 2011, through June 30, 2012), the board                participants from programs 90 days after the last date
reported $4.2 million in WIA Title IB expenditures                   they receive services. Accurately documenting the last
and 2,290 participants served. At the time of the                    service date is important because the participant’s exit
request, the Pennsylvania Bureau of Audits had                       date starts the time period for measuring participant
initiated a performance audit of fiscal issues at the                outcomes. Our review of a random sample of 288
board based on a request the bureau received from                    participants found that 14 (approximately 5 percent)
the Pennsylvania Department of Labor and Industry                    had inaccurate exit dates. While our statistical results
(L&I), the State Workforce Agency (SWA) responsible                  showed these errors did not materially impact the
for administering WIA in Pennsylvania. Therefore, our                board’s performance results for PY 2011, there is a
audit focused on programmatic issues and how well                    risk that they could do so in future program years if,
the board met its performance goals.                                 for example, the exit date is manipulated to augment
                                                                     performance results.



14     Semiannual Report to Congress: April 1 – September 30, 2013
                             Employment and Training Programs
Our analysis of services provided to the 1,161                    Navajo Nation Did Not Adequately Manage
participants who exited the WIA programs between                  $16.5 Million in WIA Grant Funds and
April 1, 2010, and March 31, 2011, identified 316
                                                                  Could Have Served More Participants with
who received training. Of these 316 participants,
                                                                  Available Funds
132 (42 percent) either did not obtain employment,
or their employment was unrelated to the training
                                                                  We conducted a performance audit of WIA grants
they received. We found these overall percentages
                                                                  awarded to the Navajo Nation to determine whether
to be comparable to those reported by SWAs and at
                                                                  grant funds were properly expended and program
the national level. Although not required by WIA, we
                                                                  targets met in accordance with federal and grant
believe ETA should consider requiring this type of
                                                                  requirements.
analysis to help further ensure the efficiency of the
program.
                                                                  WIA authorizes Congress to provide funds for the
                                                                  Indian and Native American Program (INAP), which
We also noted that 72 percent of participants who
                                                                  serves the workforce development needs of Indian
received staff-assisted services were employed in at
                                                                  and Native American adults and youth. The purpose of
least the first three quarters after exit, and their wages
                                                                  INAP grants—of which the Navajo Nation is the largest
increased 76 percent during this period compared to
                                                                  recipient—is to fully develop academic, occupational,
their wages in the three quarters before they entered
                                                                  and literacy skills of eligible participants; make them
the program.
                                                                  more competitive in the workforce; and promote
                                                                  economic and social development of Native American
We made four recommendations to ETA to ensure
                                                                  communities. The Navajo Department of Workforce
that case workers comply with ETA requirements and
                                                                  Development (NDWD) administers INAP grant funds
maintain proper documentation of services provided
                                                                  on behalf of the Navajo Nation. During PYs 2010 and
to WIA participants, and conduct a study or analysis to
                                                                  2011, NDWD spent $25.2 million and served 1,916
determine why participants did not obtain employment
                                                                  adults and 2,607 youth.
related to the training they received and use the results
to develop strategies to increase the percentage
                                                                  Our audit questioned $8 million of NDWD’s grant
of participants who find employment related to the
                                                                  expenditures. NDWD could not show that personnel
training they received. As it did in a previous audit with
                                                                  costs of $6.7 million were based on active participants,
a similar finding, ETA strongly disagreed with OIG’s
                                                                  personnel activity reports, or an approved substitute
conclusion that the Board should have goals for the
                                                                  system, as required by OMB Circular A-87. Additionally,
percentage of participants who received training and
                                                                  we questioned non-personnel costs totaling $1.3
found training-related employment, stating that WIA
                                                                  million due to other unallowable expenditures.
does not have such a requirement. ETA also reiterated
that as Congress moves forward to reauthorize WIA,
                                                                  We also found that NDWD had retained $8.5 million in
it and the Administration may consider additional
                                                                  unspent funds that exceeded the end of year carryover
policy positions such as including a performance
                                                                  limit. Despite having retained these excess funds,
measure for training services, but emphasized that
                                                                  NDWD served only 62 percent of its planned number
it cannot predict whether that is likely, nor could it
                                                                  of adults, had waiting lists of prospective participants,
commit to pursue a law change within the context
                                                                  and had policies that limited re-enrollment for
of its response. L&I and the board generally agreed
                                                                  participants that may have needed additional services.
with the findings and recommendations. (Report No.
03-13-002-03-390, September 30, 2013)
                                                             Semiannual Report to Congress: April 1 – September 30, 2013   15
                              Employment and Training Programs

ETA awarded funds to 125 other Native American                       From October 2009 to December 2010, Rader
grantees, and in PY 2011, approximately one-third                    devised a scheme to defraud the Project Hometown
of them carried over a total of $2.7 million more than               Investment in Regional Economies (HIRE) initiative.
WIA regulations allowed. ETA was aware of the large                  Project HIRE was designed to help employers
amount of unspent funds remaining at the end of each                 in targeted growth industries hire dislocated or
program year. However, it had yet to develop a policy                unemployed workers. Project HIRE was funded with
to recapture and reallocate excess carryover funds.                  Recovery Act statewide workforce funds. Rader
                                                                     forged the signature of an officer of a company
We recommended that ETA recover $8 million in                        claiming that jobs existed for people who were to
questioned costs, develop a policy for recapturing                   receive solar panel installation training. Rader then
and reallocating excess carryover funds for INAP                     falsified and submitted letters, service and supply
grants, ensure that appropriate follow-up is performed               orders, and invoices relating to jobs that did not exist
to resolve findings and to take corrective actions after             or training that had already been provided. As a result,
on-site monitoring reviews, and require NDWD to                      Rader caused BTI to fraudulently receive $66,000 in
implement accounting policies and procedures to                      job training funds.
properly allocate costs and conduct training with staff
on participant follow-up procedures. ETA concurred                   This was a joint investigation with the Federal Bureau
with all recommendations except to require NDWD                      of Investigation. United States v. Eric M. Rader (S.D.
to train staff on participant follow-up procedures.                  Ohio)
ETA contended that, due to limited staffing and
resources, tracking participants after exit often
presents a challenge to grantees. We recognize the
challenge grantees face in tracking participants after
exit but maintain that participant follow-up is needed
to ensure they receive the help necessary to be more
competitive in the workforce. (Report No. 02-13-202-
03-355, September 30, 2013)


Former Ohio Apprenticeship Manager
Sentenced for Fraudulently Billing a
WIA Program

Eric Rader, a former recruiter and apprenticeship
manager for the Building Trades Institute (BTI),
was sentenced on July 17, 2013, to three years of
probation and ordered to pay $66,000 in restitution
to the Delaware County Department of Job and
Family Services. Rader previously pled guilty to
conspiracy to commit fraud by submitting fraudulent
bills in connection with a federally funded job training
program.

16     Semiannual Report to Congress: April 1 – September 30, 2013
Worker Safety, Health, and
   Workplace Rights
                      Worker Safety, Health, and Workplace Rights


          Mine Safety and Health Administration
     The federal Mine Safety and Health Act of 1977 (Mine Act), as amended by the Mine Improvement and
  New Emergency Response Act of 2006 (MINER Act), charges the Mine Safety and Health Administration
  (MSHA) with setting standards to protect the health and safety of more than 300,000 men and women working
  in our nation’s mines.



MSHA Should Continue to Reassess                                     find that MSHA employees received inappropriate
and Make Improvements to its Role in                                 complimentary rooms or room upgrades.

Mine Rescue Contests
                                                                     MSHA’s previous decisions to plan and organize
                                                                     contests were permissible given its mission. However,
MSHA conducts biennial Mine Rescue Training
                                                                     it failed to comply with related federal regulations, and
Contests in alternating years for each of its two major
                                                                     implement adequate internal controls in doing so, and
program areas, (1) Coal and (2) Metal and Nonmetal
                                                                     may have failed to comply with federal laws.
(MNM). MSHA uses these contests as a training tool to
improve the skills required to respond to a mine rescue
                                                                     For example, MSHA did not perform cost comparisons
emergency and to strengthen cooperation between
                                                                     as required by the Federal Travel Regulations when
mining companies, equipment manufacturers, and
                                                                     planning the 2006-10 MNM contests. MSHA violated
federal and state agencies. Through 2010 the five
                                                                     the FAR by not justifying its use of sole-source
most recent MNM contests were in Reno, Nevada;
                                                                     contracts with the Reno-Sparks Convention and
and in 2011, the most recent coal contest was in
                                                                     Visitors Authority in 2006 and 2010. It also included
Columbus, Ohio.
                                                                     impermissible indemnification clauses when it entered
                                                                     into contracts with Reno-Sparks and the Peppermill
We initiated a performance audit of MSHA’s MNM
                                                                     Hotel. MSHA also impermissibly guaranteed rooms
contests after receiving several complaints alleging
                                                                     for mine rescue teams with the Peppermill in 2012.
that MSHA wasted taxpayer dollars by sending
                                                                     The contest was cancelled and the Peppermill may
employees to Reno, Nevada, for these contests, and
                                                                     be entitled to collect a penalty from MSHA.
that MSHA received upgraded and free hotel rooms.
During our audit fieldwork, MSHA also informed us
                                                                     MSHA did not follow Federal Acquisition Regulation
it had concerns about the use of a nongovernment
                                                                     (FAR) requirements when it contracted for contests’
bank account to hold the fees from coal contests.
                                                                     space and hotels. MSHA failed to justify its use
Therefore, we expanded our work to include MSHA’s
                                                                     of a sole-source contract with the Reno-Sparks
handling and use of the fees collected for both MNM
                                                                     Convention and Visitors Authority (RSCVA) for
and coal contests. Our interim audit results, which we
                                                                     space for the 2006 and 2010 MNM contests. MSHA
previously reported to MSHA, found MSHA did not
                                                                     failed to remove standard contract provisions in
follow proper approval and contracting procedures,
                                                                     agreements with RSCVA and the Peppermill hotel
document its fee structure methodology, or fully
                                                                     for the canceled 2012 MNM contest. Each contract
account for MNM contest fees and costs. We did not
                                                                     included impermissible penalties. The terms of the

18     Semiannual Report to Congress: April 1 – September 30, 2013
                    Worker Safety, Health, and Workplace Rights

agreement may have entitled the Peppermill to collect         future contests; (3) ensure that the $326,000 coal fund
all or a portion of a $194,910 room cancellation              balance is secured and none of the funds are spent
penalty for both MSHA and nongovernment contest               until a decision has been made as to the appropriate
participants. Significantly, the majority of funds            disposition of those funds; and (4) request a decision
potentially owed to the Peppermill Hotel were for             from the Government Accountability Office as to
costs that MSHA would not have used appropriated              whether MSHA could legally charge and retain fees
funds to pay: the guestroom fees of nongovernment             for its contests pursuant to the Independent Offices
contest participants.                                         Appropriations Act or any other statute. MSHA agreed
                                                              with our recommendations and noted that the agency
Finally, MSHA may have lacked specific statutory              has already taken significant steps to address two
authority to charge and retain fees for its coal              of them. (Report No. 05-13-004-06-001, September
contests and may have violated the Miscellaneous              30, 2013)
Receipts Act (MRA) and possibly the Antideficiency
Act by collecting fees and not depositing them with           MSHA Can Improve Its Section 110
the Treasury. Without specific authority or other             Special Investigations Process
permissible basis for collecting the fees, MSHA may
be required to deposit with the Treasury some or all          Under Section 110(c) of the Mine Act, each MSHA
of the funds collected as well as the approximately           district conducts investigations of corporate operators
$326,000 that remained unspent after the 2011 coal            that violate mandatory health or safety standards or
contest. Additionally, MSHA may potentially have an           knowingly violate or fail, or refuse to comply with
Antideficiency Act violation if it is found MSHA spent        any citations or orders MSHA issues. The Technical
funds it should have deposited with the Treasury and          Compliance and Investigations Office (TCIO) within
does not have sufficient funds currently available to         MSHA is responsible for the overall administration of
deposit.                                                      the National Special Investigations Program, which
                                                              governs Section 110 special investigations. In FY
The deficiencies we identified were caused by MSHA’s          2012, MSHA completed 292 such investigations and
lack of management oversight and resulted in MSHA             proposed $861,620 in penalties against agents of
spending excessive, unnecessary, and potentially              mine operators. We conducted a performance audit to
unallowable funds on planning and conducting the              determine whether MSHA was appropriately initiating
contests, and exposing the agency to significant legal        and completing Section 110 special investigations
and financial liabilities.                                    during the period of FY 2010 through FY 2012.

In addition to five recommendations we made in our            In general we found that MSHA conducted Section
interim report (which were all closed as a result of          110 special investigations properly once it initiated
corrective action taken by MSHA), we made four                them. However, in many cases MSHA did not initiate
recommendations to MSHA: (1) issue guidance                   investigations and review case files within the time
requiring MSHA’s contracting officials’ involvement           frame goals established in its Special Investigations
throughout the procurement process; (2) further               Procedures Handbook. The primary causes MSHA
develop policies and controls to ensure the contests          not meeting the general time frames were competing
are operated in compliance with laws and regulations          demands for investigative resources and the nature
or relinquish MSHA’s role as organizer and host of all        of some investigations which required additional

                                                         Semiannual Report to Congress: April 1 – September 30, 2013   19
                      Worker Safety, Health, and Workplace Rights

time to complete. According to MSHA’s goals, after                   track all data related to Section 110 investigations.
which are not mandatory or performance goals, the                    To compensate, TCIO maintained some data related
district manager approves the start of an investigation,             to the events and cases in an ad hoc database, but
districts are to initiate cases within 60 calendar days              this system made it cumbersome to manage the data
and submit cases for which the district recommends                   and to ensure complete and accurate information
a civil penalty to TCIO within 150 calendar days. In                 regarding all aspects of the investigation process.
our review of a sample of 93 cases, we found 90
instances in 65 cases (70 percent) in which MSHA                     We made three recommendations to MSHA:
did not meet its time frame goals. Given this result,                reevaluate its Section 110 activities or goals
the agency should reevaluate either the program’s                    to better measure the program’s performance,
activities, the reasonableness of the time frame goals,              assess and revise documentation guidance; and
or both. Without knowing whether the time frame goals                take steps to consolidate information into a single
are reasonable, MSHA cannot properly evaluate the                    source to facilitate the management of all aspects of
performance of its Section 110 special investigations                investigations. MSHA disagreed with the OIG’s first
program or make informed decisions regarding the                     recommendation, stating that special investigators’
resources devoted to the program.                                    need to balance demands and prioritize other work
                                                                     assignments impacts Section 110 time frames. MSHA
Moreover, MSHA did not always document its                           agreed with the recommendations on documentation
rationale for not pursuing certain investigations and                guidance and on information for managing special
did not include necessary documentation in some                      investigations. (Report No. 05-13-008-06-001,
investigative case files. Without complete information,              September 30, 2013)
MSHA cannot ensure that the investigations
conducted adequately supported the conclusions                       Former President of Massey’s Green
reached or that all investigations that were warranted               Valley Resource Group Sentenced for
were in fact initiated.
                                                                     Conspiracy
Additionally, MSHA was not ensuring the proper
                                                                     David Hughart, former president of Massey’s Green
tracking of credentials for the special investigators
                                                                     Valley Resource Group (Massey), was sentenced
who conduct the Section 110 investigations. MSHA
                                                                     on September 10, 2013, to 42 months’ incarceration
developed a draft standard operating procedure (SOP)
                                                                     followed by 3 years of supervised release for
and a prototype database for tracking credentials, but
                                                                     conspiracy. Hughart previously pled guilty to
neither one had been completed or implemented.
                                                                     conspiracy to impede MSHA inspections and to violate
Without implemented SOPs and complete information
                                                                     mine safety and health laws.
in its database, MSHA may not be able to ensure that
all special investigators were credentialed, expired
                                                                     Hughart admitted that he and others at Massey
credentials were renewed, and credentials that
                                                                     conspired to violate mine safety and health laws and
were no longer needed were properly disposed of in
                                                                     to conceal and cover up violations by warning mining
accordance with departmental requirements.
                                                                     operators when MSHA inspectors were arriving to
                                                                     conduct mine inspections. Hughart is the highest-
Each of these weaknesses was compounded by
                                                                     ranking mine official ever convicted of conspiracy to
an IT system that did not allow TCIO to compile or
                                                                     impede MSHA inspections or conspiracy to violate

20     Semiannual Report to Congress: April 1 – September 30, 2013
                    Worker Safety, Health, and Workplace Rights

mine, health, and safety standards. This was a joint
investigation with the FBI and the IRS Criminal
Investigation Division. United States v. David Hughart
(S.D. West Virginia)



    Occupational Safety and Health Administration

    The Occupational Safety and Health Administration (OSHA) was established by the Occupational Safety and
 Health Act of 1970 (OSH Act). OSHA’s mission is to ensure that every working man and woman in the American
 workplace has safe and healthy working conditions. OSHA does this by setting and enforcing workplace safety
 and health standards; providing training, outreach, and education; and encouraging continuous improvement
 in workplace safety and health.



Recovery Act: OSHA Activities Under                           accordance with OSHA’s Recovery Act plan, OSHA
the Recovery Act                                              used the obligated funds for contracts for outreach
                                                              programs, discretionary grants for enforcement to
The Recovery Act designated $80 million for                   states with a state plan, and salaries and expenses for
department management purposes, of which                      inspections and enforcement activities. The reasons
approximately $13.6 million was transferred to OSHA           OSHA did not obligate funds included delays in
for enhanced inspection and enforcement activities.           federal and state distribution of Recovery Act funds
According to OSHA’s Recovery Act plan, the agency             for projects; the low number of states with a state plan
intended to use these funds to increase the number            responding to OSHA’s discretionary grant solicitation;
of inspections by 2,725 over FYs 2009, 2010, and              return of grant funds from two grant recipients; and
2011. OSHA anticipated the inspections to be in               insufficient notification methods to find out when
connection with Recovery Act–funded construction,             projects started, resulting in inspectors’ arriving at
transportation, and related projects. We conducted            worksites to find that projects were not yet under way.
a performance audit to determine how OSHA spent
the money it received under the Recovery Act and              OSHA’s information databases reflected that the
whether OSHA achieved its objectives for increased            agency surpassed its goal to increase federal
compliance assistance, construction data, and state           Recovery Act inspections over FYs 2009, 2010, and
plan state enforcement activities. We also examined           2011 by conducting 5,669 inspections. However,
whether OSHA conducted additional inspections and             our testing of a statistical sample of 163 inspections
enforcement activities.                                       that were coded as Recovery Act found that 35 (21
                                                              percent) did not contain documentation to support
Our audit found that OSHA obligated $7.7 million              such coding. This lack of documentation makes it
of the Recovery Act funds it received; $5.9 million           impossible for OSHA to accurately measure whether it
was returned to the U.S. Treasury when the funds’             met or surpassed its goal to increase federal Recovery
availability expired at the end of FY 2010. In                Act inspections.


                                                         Semiannual Report to Congress: April 1 – September 30, 2013   21
                      Worker Safety, Health, and Workplace Rights

We recommended that OSHA develop a framework
for implementing temporarily funded inspection
programs, and identify and record the source of
inspection in its information databases. OSHA
accepted the recommendations and agreed to
develop a framework for implementing them. (Report
No. 18 13-004-10-105, July 16, 2013)


Louisiana Woman Sentenced After
Posing as an OSHA Trainer

Connie Knight was sentenced on May 16, 2013, to 57
months in prison and 3 years of supervised release,
and ordered to pay more than $25,000 in restitution
for posing as an OSHA trainer. Knight previously pled
guilty to creating false identification documents and
impersonating a federal official.

In the wake of the Deepwater Horizon oil spill, Knight
created fraudulent credentials to represent herself
as a certified OSHA instructor. Knight produced and
issued fraudulent OSHA certificates, which workers
were required to have in order to assist with the oil
spill cleanup. After the spill, many fisheries in the gulf
were closed, causing workers in that industry to seek
employment as oil spill cleanup personnel. Knight
enticed more than 1,000 individuals, predominantly
from fishing communities in southern Louisiana, to
sign up for her fraudulent training courses. Knight
charged each individual between $150 and $300 for
a false OSHA certification, while misrepresenting that
such certification would guarantee employment with
the oil spill cleanup efforts.

This was a joint investigation with the U.S.
Environmental Protection Agency–Criminal
Investigation Division (EPA-CID), with the assistance
of OSHA. United States v. Connie Knight (E.D.
Louisiana)




22     Semiannual Report to Congress: April 1 – September 30, 2013
                    Worker Safety, Health, and Workplace Rights

                         Wage and Hour Programs
    The Wage and Hour Division (WHD) is responsible for enforcing labor laws, such as those that cover
 minimum wage and overtime pay, child labor, record keeping, family and medical leave, and migrant workers,
 among others. Additionally, WHD administers and enforces the prevailing wage requirements of the Davis-
 Bacon Act and other statutes applicable to federal contracts for construction and the provision of goods and
 services. The Davis-Bacon Act and related acts require the payment of prevailing wage rates and fringe
 benefits on federally financed or assisted construction.



Texas Business Owners Sentenced for                           Illinois Trucking Company Owner
Offering a Gratuity to a DOL Wage and                         Convicted for Making False Statements
Hour Investigator                                             on Payroll Certifications

Ying Hui Wang and Kong Sheng Wang, owners of                  William Clark, owner of Clark Trucking and Excavation,
the Famous Cajun Grill restaurant, were sentenced             LLC (Clark Trucking), was found guilty on September
on August 15, 2013, for illegally paying a gratuity to        12, 2013, of making false statements on certified
a public official. Ying Wang was sentenced to two             payrolls.
years’ probation and ordered to pay a $2,500 fine.
Kong Wang was sentenced to time served and 11                 Clark Trucking received $1.6 million to provide hauling
months of supervised release, and ordered to pay a            services on a federally funded construction project.
$1,000 fine.                                                  As a subcontractor, Clark Trucking was required to
                                                              comply with the provisions of the Davis-Bacon and
Ying Wang and Kong Wang offered a WHD                         Related Acts and to pay its employees at the prevailing
investigator $2,000 cash to influence him to reduce           wage rate. Our investigation revealed that from August
the amount of back wages owed to certain employees            2009 to October 2009, Clark underpaid truck drivers
of the restaurant, located in Humble, Texas. WHD              working on the project by paying them anywhere
contacted the OIG, and arrangements were made for             from $13 to $15 per hour, rather than the required
the WHD investigator to meet with the defendants. At          prevailing wage of $35.45 per hour. Clark also signed
the second meeting, the defendants made an offer              a sworn affidavit falsely claiming that Clark Trucking
and paid $5,000 cash to the WHD investigator to               had complied with labor laws regarding payment
eliminate more than $39,000 in back wages owed to             of prevailing wages. As a result of underpaying the
all employees of the restaurant.                              truck drivers, Clark was able to illegally profit from
                                                              the scheme.
This was a joint investigation with the FBI and
assistance from WHD. United States v. Ying Hui Wang           This was a joint investigation with the Internal Revenue
et al. (S.D. Texas)                                           Service–Criminal Investigation Division and EPA-CID.
                                                              United States v. William Clark (S.D. Illinois)




                                                         Semiannual Report to Congress: April 1 – September 30, 2013   23
Worker and Retiree
Benefit Programs
                             Worker and Retiree Benefit Programs
	

                              Employee Benefit Plans
     The Department’s Employee Benefits Security Administration (EBSA) is responsible for protecting the
  security of retirement, health, and other private-sector-employer-sponsored benefit plans for America’s
  workers, retirees, and their families. EBSA is charged with protecting about 141 million workers, retirees,
  and their families who are covered by nearly 684,000 private retirement plans, 2.4 million health plans, and
  similar numbers of other welfare benefit plans that together hold estimated assets of $7.6 trillion.



EBSA Needs to Provide Additional                                     or subject to state or federal regulation. This lack of
Guidance and Oversight to ERISA                                      transparency and accountability places participants
                                                                     and beneficiaries at increased risk for losses.
Plans Holding Hard to Value Alternative
Investments
                                                                     We conducted a performance audit to determine
                                                                     whether EBSA is providing adequate oversight
Almost half of the United States’ population has
                                                                     of employee benefit plans that use alternative
approximately $6.5 trillion invested in retirement
                                                                     investments. Our audit found that while EBSA provided
accounts. How employee benefit plans invest these
                                                                     oversight of plans that hold alternative investments,
funds has a direct—and sometimes harmful—effect on
                                                                     these plans’ participants and beneficiaries need
plan participants’ retirement security. The Employee
                                                                     stronger assurances that EBSA’s guidance and
Retirement Income Security Act of 1974 (ERISA)
                                                                     oversight is effective. EBSA’s efforts have included
governs asset investment in private-sector employee
                                                                     issuing guidance on certain types of investments,
benefit plans and charges the Secretary of Labor with
                                                                     providing compliance assistance and outreach,
overseeing the management of these plans.
                                                                     conducting regional enforcement projects on plans
                                                                     with hard-to-value investments, and targeting studies
Within the Department, EBSA carries out the
                                                                     on how plans report fair market valuation. Despite
Secretary’s oversight role. EBSA faces challenges
                                                                     these efforts, further action by EBSA is needed for
in meeting its mission because some plans
                                                                     the following reasons:
have increasingly shifted assets from traditional
investments, such as stocks and bonds, into an array
                                                                     • Uniform guidance for hard-to-value alternative
of complex, hard-to-value alternative investments,
                                                                       investments was lacking. We found EBSA had
which include private equity funds, hedge funds, and
                                                                       not yet implemented recommendations from
real estate.
                                                                       the ERISA Advisory Council, the Government
                                                                       Accountability Office, and the American Institute
As of 2010, employee benefit plans had amassed
                                                                       of Certified Public Accountants to provide guidance
almost $3 trillion in alternative investments, one-third
                                                                       to fiduciaries using alternative investments.
of which EBSA estimated to be hard to value. Plan
administrators cannot easily determine the fair market
                                                                     •   Hard-to-value alternative investments lacked
value of these alternative investments for a number of
                                                                         appropriate and independent valuation.
reasons, including that alternative-investment entities
                                                                         Approximately 90 percent of plans we sampled
may not be audited, listed on any national exchange,
                                                                         either did not obtain independent valuations or did
26     Semiannual Report to Congress: April 1 – September 30, 2013
                           Worker and Retiree Benefit Programs
	

   not demonstrate an analytical process to determine               had certain limitations. The form is an important
   their fair market value. These plans also relied on              compliance, research, and disclosure tool for
   client statements and general partners’ estimated                EBSA, but it is limited in its ability to capture
   values without additional analysis to ensure that                information on hard-to-value investments. The
   the alternative investments were reported at fair                form’s Schedule H provides information on specific
   market value.                                                    asset classes but does not contain sufficient data
                                                                    to determine the specific types of plan investments
•		 The use of limited-scope audits was increasing. In              that lack a generally recognized market. More
    2010, approximately $3 trillion in assets received              detailed asset information is generally contained
    only limited-scope audits, up from $520 billion in              in the plans’ financial statements that are attached
    1989. Limited-scope audits present challenges                   to the Form 5500 filing. However, EBSA cannot
    for plan administrators in accurately valuing and               adequately electronically search and correlate
    reporting hard-to-value alternative investments                 the data in the attachment. As a result, EBSA can
    because such audits perform no auditing                         neither effectively determine the total amount of
    procedures that test for the existence or valuation             hard-to-value investments nor target plans for
    of plan assets held and “certified” by a qualifying             compliance with reporting requirements.
    financial institution. We previously recommended
    that EBSA seek repeal of the limited-scope audit            Without adequate assurances that plan managers and
    and, in the interim, clarify the requirements needed        administrators prudently select, monitor, and value
    to hold and certify plan assets, as well as provide         plan investments, ERISA plans invested in these
    guidance to plan administrators to identify and             types of assets can sustain losses from imprudent,
    adequately support the current value of plan assets         speculative, Ponzi, and other fraudulent schemes.
    in limited-scope audits. EBSA has agreed and, in            Participants and beneficiaries invested in plans to
    the past, proposed changes to ERISA. However,               accrue retirement income are at an increasing risk
    Congress has not acted to make these changes,               of loss as employee benefit plan assets invested in
    and EBSA has not proposed eliminating the limited-          alternative investments grow.
    scope audit provision since 1997.
                                                                We recommended that EBSA propose and formalize
• 	 EBSA lacked specific investigative review                   guidance and evaluate the recommendations
    procedures. Our sample of regional office case              provided by the ERISA Council; improve procedures
    files found that EBSA lacked specific investigative         in enforcement reviews; and improve Form 5500 data
    procedures to identify whether plans obtained               collection, analysis, and targeting. EBSA responded
    independent valuations or plan managers had                 that it did not believe the trillions of dollars of plan
    established a process to evaluate the fair market           assets invested in alternative investments and hard-
    value of all hard-to-value plan investments. EBSA           to-value assets pose significant valuation concerns,
    also lacked specific procedures to refer cases in           that EBSA already provided sufficient guidance, that
    which it found potentially substandard audit work           its investigative procedures were sufficient, and that
    to its Office of Chief Accountant, which is tasked          Form 5500 already focuses on asset valuation. EBSA
    with reviewing audit quality issues.                        agreed to further consider the OIG recommendations
                                                                but did not provide any explicit corrective actions.
• 	 Form 5500, which EBSA used for reporting and                (Report No. 09-13-001-12-121, September 30, 2013)
    data collection for hard-to-value investments,

                                                           Semiannual Report to Congress: April 1 – September 30, 2013   27
                             Worker and Retiree Benefit Programs
	

     Office of Workers’ Compensation Programs
     The Office of Workers’ Compensation Programs (OWCP) administers four workers’ compensation programs:
  the Energy Employees Occupational Illness Compensation program (EEOICPA), the Federal Employees’
  Compensation Act (FECA) program, the Longshore and Harbor Workers’ Compensation Act program, and
  the Coal Mine Workers’ Compensation program.




   Federal Employees’ Compensation Act Program
    The FECA program provides workers’ compensation coverage to approximately 2.8 million federal,
  postal, and certain other employees for work-related injuries and illnesses. Benefits include wage loss
  benefits, medical benefits, vocational rehabilitation benefits, and survivors’ benefits for covered employees’
  employment-related deaths. In FY 2012, the FECA program made more than $2.1 billion in wage loss
  compensation payments to claimants and processed approximately 20,000 initial wage loss claims. At the
  end of FY 2012, nearly 50,000 claimants were receiving regular monthly wage loss compensation payments.



Texas Postal Worker Sentenced for                                    parking and were accessible without using toll roads.
Falsifying Travel Records                                            Henry defrauded OWCP of more than $171,000.


Mytasha Henry, a former U.S. Postal Service (USPS)                   This was a joint investigation with the USPS–Office
letter carrier, was sentenced on April 26, 2013, to 24               of Inspector General (USPS-OIG). United States v.
months in prison and 3 years of supervised release,                  Mytasha Henry (S.D. Texas)
and ordered to pay more than $171,000 in restitution.
Henry was previously convicted for falsifying medical                Former California Medical Biller
travel refund requests submitted to OWCP.                            Sentenced for Health Care Fraud

From September 2007 to May 2012, Henry filed                         Farideh Heidarpour, a medical biller, was sentenced
medical travel refund requests, claiming mileage,                    on June 3, 2013, to 12 months in prison and 36 months
parking, and toll fee reimbursements for physician                   of supervised release, and ordered to pay a fine of
and rehabilitation appointments she did not attend.                  more than $1.88 million, reimburse the United States
Henry fraudulently claimed that she had attended two                 $1 million, and pay OWCP restitution in the amount of
or three appointments daily for rehabilitation treatment             $120,000, for her role in a scheme to commit health
up to six or seven days a week, including holidays.                  care fraud. On August 29, 2013, the court ordered
However, Henry actually had only 19 appointments                     that $810,000 of the $1 million reimbursement be
with a physician or rehabilitation specialist pertaining             paid to OWCP. Heidarpour previously pled guilty for
to her on-the-job injury. In addition, Henry claimed                 fraudulently billing OWCP.
parking and toll fees on her medical travel refund
requests even though the medical facilities had free

28     Semiannual Report to Congress: April 1 – September 30, 2013
                          Worker and Retiree Benefit Programs
	

From 2005 through 2009, Heidarpour was the                    Chicago Man Pleads Guilty to
owner of A.B.C. Billing, Inc., and the medical biller         Defrauding OWCP for Travel Costs to
for Advanced Clinics in Oklahoma City, Tulsa, Dallas,
                                                              Medical Appointments
and Oakland. The majority of Advanced Clinics’
patients were injured U.S. postal workers receiving
                                                              Donald Bayless, a former security officer with the
medical benefits from OWCP. In her role as a billing
                                                              Transportation Security Administration (TSA), pled
manager, Heidarpour fraudulently billed OWCP for
                                                              guilty on July 18, 2013, to one count of mail fraud.
unnecessary medical evaluations and services not
                                                              Bayless had been previously charged for his role in a
rendered. She also double-billed for services provided
                                                              scheme to fraudulently receive FECA travel benefits.
and manipulated billing codes to fraudulently obtain
higher reimbursements.
                                                              Bayless fraudulently claimed reimbursement for
                                                              transportation costs that he did not incur to attend
This was a joint case with the USPS–OIG, with
                                                              medical and rehabilitation appointments. He also
the assistance of OWCP. United States v. Farideh
                                                              claimed reimbursement for inflated travel costs
Heidarpour (W.D. Oklahoma)
                                                              for appointments that he actually attended. From
                                                              August 2005 through April 2009, Bayless submitted
Montana Electrician Pleads Guilty for                         approximately 160 fraudulent medical travel refund
Fraudulent FECA Scheme                                        requests, claiming he had incurred more than $74,000
                                                              in medically related travel expenses.
William Szudera, a former electrician, was sentenced
on September 26, 2013, to 48 months’ probation and            This was a joint investigation with TSA. United States
ordered to pay more than $83,000 in restitution to            v. Donald Bayless (N.D. Illinois)
OWCP. Szudera previously pled guilty to mail fraud
for providing false documents to OWCP.

Szudera collected FECA benefits for an injury he
suffered while performing duties as an electrician for
the Bureau of Reclamation. Szudera falsely reported
to OWCP that he was not self-employed or involved
in any business enterprise, when in fact he had
owned and operated a shooting supply company,
B&G Shooting Supply. By not reporting his business
activities, Szudera was able to collect FECA benefits
to which he was not entitled.

This was a joint investigation with the Department of
Energy–OIG. United States v. William Szudera (D.
Montana)




                                                         Semiannual Report to Congress: April 1 – September 30, 2013   29
                             Worker and Retiree Benefit Programs
	

             Unemployment Insurance Programs
      Enacted more than 80 years ago as a federal–state partnership, the Unemployment Insurance (UI) program
  is the Department’s largest income-maintenance program. This multibillion-dollar program assists individuals
  who are unemployed due to lack of suitable work. While the framework of the program is determined by
  federal law, the benefits for individuals are dependent on state law and are administered by State Workforce
  Agencies (SWAs) in 53 jurisdictions covering the 50 states, the District of Columbia, Puerto Rico, and the
  U.S. Virgin Islands, under the oversight of the Employment and Training Administration (ETA).



New Jersey Man Sentenced After                                       Florida Man Sentenced for Executing
Defrauding UI Program of $1.6 Million                                Fraudulent UI Scheme

Derek Gaters was sentenced on April 30, 2013, to 27                  Denny Hughes was sentenced on August 7, 2013, to
months in prison and 3 years of supervised release,                  more than 5 years in prison and 3 years of supervised
and ordered to pay restitution of more than $1.6 million             release, and ordered to pay more than $290,000
to the New Jersey Department of Labor and Workforce                  in restitution to the State of Florida Department of
Development (NJDLWD). Gaters previously pled                         Economic Opportunity (DEO) and the Massachusetts
guilty for his role in a scheme to fraudulently obtain               Department of Unemployment Assistance (DUA).
UI benefits from NJDLWD.                                             Hughes previously pled guilty to wire fraud and
                                                                     aggravated identity theft.
Between 2003 and 2007, Gaters prepared and
submitted false UI applications to NJDLWD on behalf                  Hughes obtained the personally identifiable
of approximately 233 individuals, including his 3 co-                information of approximately 21 individuals and
conspirators. Gaters and his co-conspirators recruited               submitted quarterly wage reports to DEO falsely
other individuals into the scheme and used their                     representing that they were laid-off employees of a
names and other personally identifiable information                  fictitious company, Mortgage Relief America, LLC
to fraudulently apply for UI benefits. The applications              (MRA). Hughes also submitted falsified W-2 forms to
claimed that the individuals had been employed by                    DEO to create the appearance that these individuals
Regal Unloading Services, Inc., a defunct company                    had worked for MRA. Hughes then filed fraudulent
Gaters had owned but that ceased operating in 2003.                  applications with DEO seeking UI benefits on their
NJDLWD mailed the UI checks to the claimants                         behalf. Once approved, Hughes certified the UI
who then paid Gaters approximately $200 from                         claims weekly or biweekly, causing UI benefits to be
each UI check received. As a result, NJDLWD was                      deposited directly into his bank account. As a result,
defrauded out of more than $1.6 million. Gaters’                     Hughes fraudulently received more than $220,000
three co-conspirators were previously convicted and                  in UI benefits from DEO. Hughes devised a similar
sentenced.                                                           scheme by creating another fictitious company under
                                                                     the name of Commonwealth Global Corp., located
United States v. Derek Gaters (D. New Jersey)                        in Massachusetts. In that scheme, Hughes utilized
                                                                     the personally identifiable information of at least 23

30     Semiannual Report to Congress: April 1 – September 30, 2013
                           Worker and Retiree Benefit Programs
	

individuals to fraudulently apply for and receive more          Former Army Soldier Sentenced to
than $70,000 in UI benefits from DUA.                           Four Years in Prison for Unemployment
                                                                Benefits Fraud Scheme
This was a joint investigation with the Florida
Department of Economic Opportunity. United States
                                                                Christopher Wilson, a former U.S. Army private,
v. Denny Hughes (S.D. Florida)
                                                                was sentenced on April 12, 2013, to 48 months in
                                                                prison and 3 years’ supervised release, and ordered
Las Vegas Man Sentenced for                                     to pay $143,000 in restitution to the New York State
Manufacturing UI Checks                                         Department of Labor’s Unemployment Insurance
                                                                Division for UI benefit fraud. Wilson previously pled
Michael Juliano was sentenced on September 24,                  guilty to theft of government funds and mail fraud for
2013, to more than 3 years in prison, and ordered               filing fraudulent applications for UI benefits intended
to pay more than $17,000 in restitution. Juliano had            for qualified military veterans
previously pled guilty on June 26, 2013, for his role in
creating and negotiating counterfeit State of Nevada            Between August 2010 and September 2011, Wilson
UI checks.                                                      conspired with others to file dozens of fraudulent
                                                                applications for Unemployment Compensation for
From May 2011 to February 2012, Juliano obtained                Ex-servicemembers program (UCX) benefits to which
or purchased personally identifiable information by             they were not entitled. They did so by obtaining the
various means, such as by stealing from mailboxes               names and Social Security numbers of unknowing
and burglarizing apartment complex files. He used               individuals and creating fraudulent Certificate of
the information to manufacture at least 57 counterfeit          Release from Active Duty discharge forms and other
State of Nevada UI checks, which he and others                  documents, which indicated that these individuals
negotiated at retailers for cash. Juliano used at               had served in and been honorably discharged from
least 43 different stolen identities on the counterfeit         the military. The defendants then submitted these
UI checks and created driver’s licenses to match                fraudulent documents to states, including New York, in
the identities using his own driver’s license photo.            support of claims for UCX benefits. As a result, Wilson
In order to cash a check, Juliano would enter the               received approximately $143,000 in benefits to which
stolen identities and Social Security numbers into              he was not entitled. Wilson is the last defendant to be
the retailer’s check verification system. As a result of        convicted.
this scheme, Juliano was able to negotiate more than
$26,000 in counterfeit Nevada UI checks.                        This was a joint investigation with the New York
                                                                State Department of Labor (NYS-DOL) and Defense
This was a joint investigation with the United States           Criminal Investigative Service. United States v.
Postal Inspection Service and the Social Security               Christopher Wilson (S.D. New York)
Administration (SSA)–OIG. United States v. Michael
Juliano (D. Nevada)




                                                           Semiannual Report to Congress: April 1 – September 30, 2013   31
                             Worker and Retiree Benefit Programs
	

Ohio Woman Sentenced for Committing                                  scheme to collect UI benefits. As part of the scheme,
UI Fraud in Eight States                                             Johnson made false representations to the Maryland
                                                                     Department of Labor, Licensing, and Regulation,
Audrey Costar was sentenced on August 9, 2013,                       claiming to be the former employee of a company that
to 48 months in prison and 3 years of supervised                     in fact did not exist. Once the claims were approved,
release, and ordered to pay restitution of more than                 Johnson and Sampson-Johnson filed for and received
$78,000 to the 8 states from which she fraudulently                  UI benefits biweekly.
obtained UI benefits. Costar previously pled guilty
to aggravated identity theft and theft of government                 In addition, during most of the scheme, Johnson
property.                                                            was actually incarcerated at a correctional facility
                                                                     in Baltimore. Despite Johnson’s incarceration,
From February 2009 until December 2012, Costar                       he remained in frequent telephone contact with
electronically filed false UI claims with Alaska,                    Sampson-Johnson about filing fraudulent UI claims,
Minnesota, Montana, Arizona, Utah, Ohio, Colorado,                   and she continued to falsely certify that Johnson
and Pennsylvania workforce agencies using 50 stolen                  was able and available for full-time work without
identities. Costar used some of the identities to open               restrictions. As a result of the scheme, the couple
bank accounts and obtain cash-value cards over the                   received more than $15,000 in fraudulent UI benefits.
Internet in order to collect UI benefits. As a result of
this scheme, Costar obtained more than $78,000 in                    United States v. Brian L. Johnson et al. (D. Maryland)
fraudulent UI benefits.
                                                                     New York Man Sentenced to Pay More
This was a joint investigation with SSA-OIG and the                  Than $190,000 in Restitution
United States Secret Service. United States v. Audrey
Costar (S.D. Ohio)                                                   Paul Pappas was sentenced on August 16, 2013, to
                                                                     13 months in prison and ordered to pay restitution of
Maryland Couple Sentenced for                                        more than $192,000 for his role in perpetrating a UI
Fictitious Employer Scheme                                           fraud scheme against the New York State Department
                                                                     of Labor (NYS-DOL). Pappas previously pled guilty to
Brian Johnson was sentenced on August 28, 2013,                      wire fraud for his role in a UI fraud scheme.
to 18 months in prison and 3 years of supervised
release for his role in a fictitious employer scheme that            Pappas falsely reported to NYS-DOL that certain
enabled him to fraudulently obtain UI benefits from the              individuals worked for C&P Graphics, a business
State of Maryland. Johnson’s wife and accomplice,                    operated by Pappas. He then filed false UI claims for
Beatrice Sampson-Johnson, was sentenced on                           himself and other purported employees and had the UI
September 11, 2013, to 4 months of home detention                    benefits deposited into bank accounts he controlled.
and 24 months of probation. Both were also ordered                   He accomplished this by using the personally
to pay $15,000 in restitution, jointly and severally, after          identifiable information of individuals without their
pleading guilty to conspiracy to commit wire fraud.                  knowledge both when filing for and when certifying UI
                                                                     benefits. As a result of this scheme, Pappas received
From January 2011 through May 2012, Johnson and                      more than $190,000 in UI benefits to which he was
Sampson-Johnson executed a fictitious employer                       not entitled. This was a joint investigation with NYS-
                                                                     DOL. United States v. Paul Pappas (S.D. New York)
32     Semiannual Report to Congress: April 1 – September 30, 2013
                           Worker and Retiree Benefit Programs
	

Guilty Pleas in Michigan Fictitious                             Leparski fraudulently applied for, or assisted 21
Employer Scheme                                                 individuals in applying for, UI benefits with the Illinois
                                                                Department of Employment Security (IDES), by
Tamera Smith pled guilty on April 8, 2013, for her              claiming that they had been laid off from his company,
leading role in a fictitious employer scheme. Smith’s           Leparski, Inc. Leparski also submitted quarterly
co-conspirators, Verlon Hogan, Aprilell Packnett, and           wage reports to IDES that falsely stated the length
Tanisha Ford previously pled guilty for their roles in          of employment and the amount of money earned by
the scheme. Hogan and Packnett were sentenced                   the individuals. For some of these claims, Leparski
on August 9, 2013, to serve two years of probation              arranged for the UI benefits to be deposited to his
and pay more than $83,000 in restitution, jointly and           accounts. For others, he received the claimant’s first
severally. Ford was sentenced on April 9, 2013, to              UI benefit payment and a percentage of the claimant’s
three years’ supervised release, and ordered to pay             subsequent UI benefit payments. As a result, Leparski
restitution of more than $89,000.                               defrauded IDES of more than $300,000 in UI benefits.


Smith created a fictitious employer, First Priority, for        United States v. Todd Leparski (N.D. Illinois)
the sole purpose of filing fraudulent UI benefit claims.
From October 2009 to January 2011, Smith filed
fraudulent UI claims with the Michigan Unemployment
Insurance Agency (MUIA) under the names of
nonexistent employees. Smith used the names of
her friends and relatives and other names that she
received from her co-conspirators, Ford, Packnett,
and Hogan, to file the fraudulent claims. Smith and her
co-conspirators withdrew funds that were deposited
on the UI debit cards biweekly. For each deposit,
Smith received a kickback of $250. As a result of the
scheme, Smith and her co-conspirators defrauded
MUIA of approximately $350,000.

This was a joint investigation with MUIA. United States
v. Tanisha Ford et al. (E.D. Michigan)


Illinois Man Pleads Guilty After
Receiving More Than $300,000 in
Fraudulent UI Benefits

Todd Leparski, President of Leparski, Inc., pled guilty
on September 3, 2013, to one count of wire fraud for
his role in a fictitious employer scheme.




                                                           Semiannual Report to Congress: April 1 – September 30, 2013   33
Labor Racketeering
                                    Labor Racketeering
      The OIG at DOL has a unique responsibility to investigate labor racketeering and/or organized crime
  influence involving unions, employee benefit plans, and labor-management relations. The Inspector General
  Act of 1978 transferred responsibility for labor racketeering and organized crime–related investigations
  from the Department to the OIG. In doing so, Congress recognized the need to place the labor racketeering
  investigative function in an independent law enforcement office free from political interference and competing
  priorities. Since then, OIG special agents, working in association with the Department of Justice’s Organized
  Crime and Gang Section, as well as various U.S. Attorneys’ Offices, have conducted criminal investigations
  to combat labor racketeering in all its forms.



Labor racketeering relates to the infiltration, exploitation, and/or control of a union, employee benefit plan, employer
entity, or workforce. It is carried out through illegal, violent, or fraudulent means for profit or personal benefit.

Labor racketeering impacts American workers, employers, and the public through reduced wages and benefits,
diminished competitive business opportunities, and increased costs for goods and services.

The OIG is committed to safeguarding American workers from being victimized through labor racketeering and/or
organized crime schemes. The following cases are illustrative of our work in helping to eradicate both traditional
and nontraditional labor racketeering in the nation’s labor unions, employee benefit plans, and workplaces.

Labor racketeering and organized crime groups have been involved in benefit plan fraud, violence against union
members, embezzlement, and extortion. Our investigations continue to identify complex financial and investment
schemes used to defraud benefit fund assets, resulting in millions of dollars in losses to plan participants. The
schemes include embezzlement or other sophisticated methods, such as fraudulent loans or excessive fees
paid to corrupt union and benefit plan service providers. OIG investigations have demonstrated that abuses
involving service providers are particularly egregious due to their potential for large dollar losses and because the
schemes often affect several plans simultaneously. Thus, benefit plan service providers, such as accountants,
attorneys, contract administrators, and medical providers, as well as corrupt union officials, plan representatives,
and trustees, continue to be a strong focus of OIG investigations.




36     Semiannual Report to Congress: April 1 – September 30, 2013
                                         Labor Racketeering

                        Benefit Plan Investigations
    The OIG is responsible for combating corruption involving funds in union-sponsored employee benefit
 plans. Pension and health and welfare benefit plans hold hundreds of billions of dollars in assets. Our
 investigations have shown that assets in such plans remain vulnerable to labor racketeering schemes and/
 or organized crime influence. Benefit plan service providers, including accountants, actuaries, attorneys,
 contract administrators, investment advisors, insurance brokers, and medical providers, as well as corrupt
 union officials, plan representatives, and trustees, continue to be a strong focus of OIG investigations.



Founder and President of Labor Union                          of NASPSO; and NASPSO funds unlawfully used to
Sentenced for Stealing from Union’s                           pay his personal fines in a civil lawsuit. Gray-Burriss
                                                              also committed obstruction-of-justice violations by
Treasury and Pension Fund
                                                              destroying or concealing NASPSO financial records
                                                              during a grand jury investigation, failed to file or
Caleb Gray-Burriss, the founder and former president
                                                              falsified annual reports required of NASPSO, and
of the National Association of Special Police and
                                                              failed to properly maintain records NASPSO was
Security Officers (NASPSO), was sentenced on April
                                                              required to keep. Because of these convictions,
8, 2013, to 70 months in prison, 3 years of supervised
                                                              Gray-Burriss is prohibited by federal law from serving
release, restitution of more than $252,000, and
                                                              as an officer of or being employed by a labor union
100 hours of community service. Gray-Burriss had
                                                              or employee benefit plan for 13 years following his
previously been found guilty by a jury of conspiracy
                                                              release from prison.
to embezzle from a labor organization, mail fraud,
obstruction of justice, criminal contempt, and union
                                                              This was a joint investigation with the Employee
record-keeping offenses. NASPSO represents private
                                                              Benefits Security Administration (EBSA) and Office
security guards assigned to protect federal buildings
                                                              of Labor-Management Standards (OLMS). United
in the metro Washington area.
                                                              States v. Caleb Gray-Burriss (District of Columbia)

From June 2004 through February 2011, Gray-Burriss
wrote numerous unauthorized checks to himself or to           Florida Plan Administrator Sentenced
third parties from the NASPSO pension plan checking           After Stealing $400,000
account. He spent more than $100,000 of the pension
plan funds while falsely maintaining that the account         Angela DeLeon, a former employee of Advanced
was an operational fund that he was administering             Administration, Inc. (AAI), was sentenced on August
to provide promised benefits to plan beneficiaries. In        21, 2013, to 24 months in prison, 1 year of supervised
addition, while an officer and employee of NASPSO,            release, and $594,000 in restitution.
Gray-Burriss stole more than $150,000 in NASPSO
funds consisting of cash withdrawals to himself;              As the third-party administrator for the Ironworkers
unauthorized salary increases and bonuses to himself          Local 808 Annuity Fund, AAI was responsible for
and another person; fraudulently drawn checks to              processing members’ payment applications and
himself, purportedly for employment taxes on behalf
	

                                                         Semiannual Report to Congress: April 1 – September 30, 2013   37
                                             Labor Racketeering

paying the fund-related bills. DeLeon’s duties at                    a result of her activities, Heninger embezzled more
AAI included performing data entry and processing                    than $400,000 from the joint Boilermaker Trust Fund.
payments. From September 2010 through November
2011, DeLeon wrote 46 checks from the fund, totaling                 This was a joint investigation with EBSA. United
more than $427,000, to individuals who were not                      States v. Angela Heninger (D. Kansas)
members of Local 808, participants in the fund, or
otherwise entitled to fund payments. Those individuals               Former New York Union President
cashed the checks and provided DeLeon with a share                   Pleads Guilty to Conspiracy
of the proceeds. To cover up the scheme and avoid
detection, DeLeon falsified the fund’s records.                      Hector Lopez, the former president of the Metal
                                                                     Polishers Union (Local 8A-28A) and chairman of the
The $594,000 in restitution that DeLeon was ordered                  board of trustees of the local’s welfare fund, pled guilty
to pay consists of the more than $427,000 that she                   on April 9, 2013, to charges of conspiracy to commit
stole from the fund plus the amounts spent by the                    mail fraud and wire fraud, in addition to tax evasion.
fund to audit and reconstruct the records that were
impacted by DeLeon’s scheme.                                         Lopez admitted to engaging in several schemes to
                                                                     steal from the union welfare fund, including accepting
This was a joint investigation with EBSA. United                     kickbacks from the plan’s third-party administrator
States v. Angela DeLeon (M.D. Florida)                               in exchange for ensuring the retention of that
                                                                     administrator. In addition, Lopez accepted kickbacks
Former Benefit Plan Employee Pleads                                  from the employer trustee of the local’s welfare fund
Guilty to Embezzlement                                               in exchange for authorizing the welfare fund to pay
                                                                     inflated invoices for a union hall renovation. He also
Angela Heninger, a former employee of the                            admitted accepting a kickback from the trustee in
Mobilization, Optimization, Stabilization, and Training              exchange for rigging the bidding process to ensure that
Trust (MOST), pled guilty on August 22, 2013, to one                 a sprinkler installation job was awarded to a company
count of theft from an Employee Retirement Income                    the trustee controlled. Per the plea agreement, Lopez
Security Act (ERISA)- covered plan.                                  agreed to pay $698,000 in restitution to the Local
                                                                     8A-28A Welfare Fund.
From 2006 through 2012, Heninger as an employee
of MOST and through her positions, had access to                     This was a joint investigation with the IRS, OLMS, and
a joint labor trust fund of the National Association                 EBSA. United States v. Hector Lopez (E.D. New York)
of Construction Boilermaker Employees and the
International Brotherhood of Boilermakers. As part of                Massachusetts Construction Company
the scheme, Heninger would write checks to pay two                   Owner Pleads Guilty to Defrauding
personal credit cards in her name as well as a credit
                                                                     Union Benefit Funds
card and loan in the name of her son. Heninger also
made unauthorized personal charges on her MOST-
                                                                     Juan Alonso, owner of Aguila Construction Company,
issued credit card and, using her position, arranged
                                                                     pled guilty on September 4, 2013, to theft of funds from
to have the charges paid with benefit plan funds. As
                                                                     an ERISA benefit plan, falsifying ERISA documents,
                                                                     and making false statements.

38     Semiannual Report to Congress: April 1 – September 30, 2013
                                          Labor Racketeering

Between 2008 and 2011, Aguila Construction,
a unionized construction company located in
Fitchburg, Massachusetts, secured a contract
covering several publicly funded projects, including
12 projects funded by the U.S. Department of
Transportation pursuant to the American Recovery
and Reinvestment Act of 2009. As part of the scheme,
Alonso had a portion of this contract worked by his
nonunion company, Alonso Construction, rather
than Aguila Construction, the contract signatory. In
connection with this project and in furtherance of the
scheme, Aguila Construction completed and sent
to the Massachusetts Department of Transportation
certified payroll records falsely stating the identities
of Aguila Construction employees, their number of
hours worked, and wages paid to them. By running
this scheme, and paying the employees in cash, the
defendants avoided paying approximately $782,824.
Of this amount, $752,520 related to contributions
to the Massachusetts Laborers’ Benefit Funds and
the Laborers International Union of North America’s
Benefit Funds. Another $30,304 was related to other
trusts associated with the Laborers International
Union of North America and the collective bargaining
agreement signed by the defendants.

This was a joint investigation with the U.S. Department
of Transportation—OIG and EBSA. United States v.
Juan J. Alonso and Aguila Construction Company,
Inc. (D. Massachusetts)




                                                           Semiannual Report to Congress: April 1 – September 30, 2013   39
                                             Labor Racketeering

                Labor-Management Investigations
    Labor-management relations cases involve corrupt relationships between management and union officials.
 Typical labor-management cases range from collusion between representatives of management and corrupt
 union officials to the use of the threat of “labor problems” to extort money or other benefits from employers.



Ohio Businessman Sentenced to 97                                     free home improvements, sporting event tickets, and
Months in Prison for Bribing County                                  payments covering automobile rentals, discounts, and
                                                                     maintenance. As a result, Dimora voted to appoint
Officials
                                                                     Peto to the Port Authority board in December 2004
                                                                     and again in January 2008. As repayment for Forlani’s
Michael Forlani, a Cleveland area businessman,
                                                                     help in securing his board appointments and for the
was sentenced on April 1, 2013, to more than
                                                                     various bribes paid to him by Forlani, Peto used or
8 years in federal prison followed by 36 months’
                                                                     agreed to use his Port Authority board and OVRCC
supervised release. Forlani was also ordered to
                                                                     positions to help Forlani obtain the desired financing
pay $136,251 in restitution and to forfeit $900,000
                                                                     from the Port Authority, OVRCC, and- ERISA-covered
for his role in schemes wherein he bribed multiple
                                                                     OVRCC accounts.
Ohio county officials to illegally obtain financing
for several government-funded projects. Forlani’s
                                                                     Both Dimora and Peto previously pled guilty and were
sentence follows his August 2012 guilty plea to RICO
                                                                     sentenced for their roles in this scheme. This was a
conspiracy, Hobbs Act violations, and conspiracy to
                                                                     joint investigation with the FBI, EBSA, and the U.S.
commit wire fraud, among other charges.
                                                                     Department of Veterans Affairs–OIG. United States
                                                                     v. Michael Forlani (N.D. Ohio)
Between 2002 and 2009, Forlani sought and obtained
assistance from Jimmy Dimora, a former Ohio county
commissioner. Dimora was sentenced to 28 years                       Illinois Construction Company Owner
in prison for his role in the scheme, which included                 Sentenced on Attempted Extortion
helping to influence the appointment of Robert Peto,                 Charges in Complex Public Corruption
executive secretary/treasurer of the Ohio and Vicinity               Scheme
Regional Council of Carpenters (OVRCC) and an
OVRCC ERISA fund trustee, to the Cuyahoga County                     In previous semiannual reports the OIG reported on
Port Authority board. Peto’s appointment to the board                investigations involving Jacob Kiferbaum and Stuart
and his OVRCC affiliations ensured that Forlani                      Levine. During this reporting period Kiferbaum, who
would obtain financing from the Port Authority and                   provided substantial assistance to the prosecution
OVRCC for various construction projects, including                   regarding Levine, was sentenced for his role in a
a $125 million U.S. Department of Veterans Affairs                   public corruption scheme.
2,080-space parking garage, an office building, and
a 122-bed dwelling for homeless veterans. To gain                    Kiferbaum, owner of Kiferbaum Construction
Dimora’s support, Forlani compensated him with                       Company (KCC), was sentenced on July 31, 2013,


40     Semiannual Report to Congress: April 1 – September 30, 2013
                                            Labor Racketeering

to 27 months in prison, followed by 2 years of
supervised release, and ordered to pay a $250,000
fine. Kiferbaum was also ordered to have KCC
pay $7,050,000 in restitution to Rosalind Franklin
University of Medicine and Science (RFUMS). This
amount represents the net profits that KCC realized
from two falsely inflated construction project contracts.

Kiferbaum conspired with Stuart Levine to fraudulently
obtain millions of dollars of illegal kickbacks via
artificially inflated construction contracts and extortive
behavior. Using their positions on the RFUMS trustee
board and Levine’s position on the Illinois Health
Facilities Planning Board (IHFPB), Kiferbaum and
Levine forced hospitals planning new construction to
use KCC for the work lest the hospitals’ applications
for state-required certificates of need be denied.

Kiferbaum provided substantial assistance in the
government’s investigation of Levine, who sat on
the board for the $30 billion Illinois State Teachers
Retirement System (TRS) and was subsequently
indicted on several pension plan kickback schemes
affecting TRS. Largely due to Kiferbaum’s assistance,
Levine pled guilty to mail fraud and money laundering
charges and provided essential assistance in the
government’s successful investigations of political
power brokers such as former governor Rod
Blagojevich, Antoin Rezko, William Cellini, and
Edward Vrdolyak for schemes relating to extortion,
politically motivated kickbacks, and the bartering of
a U.S. Senate seat. Kiferbaum, the last defendant
in the case, was sentenced for attempted extortion.

This was a joint investigation with the FBI, the United
States Postal Inspection Service, and the IRS. United
States v. Jacob Kiferbaum (N.D. Illinois)




                                                             Semiannual Report to Congress: April 1 – September 30, 2013   41
                                             Labor Racketeering

        Internal Union Corruption Investigations
      Subjects of our internal union corruption investigations include officers who abuse their positions of
  authority in labor organizations to embezzle money from union and member benefit plan accounts, and
  those who defraud hardworking members of their right to honest services. Investigations in this area also
  focus on situations in which organized crime groups control or influence a labor organization—frequently to
  influence an industry for corrupt purposes or to operate traditional vice schemes. Following are examples of
  our work in this area.



Former Yuba City Plumbers Union                                      and concert tickets. As a result of this scheme, the
Business Manager and His Wife                                        Carrs caused approximately $120,000 in losses to
                                                                     the union.
Sentenced for Misappropriation of
Labor Union Funds
                                                                     This was a joint investigation with OLMS. United
                                                                     States v. Robert L. Carr and Theresa Ann Carr (E.D.
On May 17, 2013, Robert Carr was sentenced to 30
                                                                     California)
months in prison and his wife, Theresa Carr, was
sentenced to 3 months in prison. Both were ordered
to cumulatively pay $120,000 in restitution to Local
Union No. 228, United Association of Journeymen and
Apprentices of the Plumbing and Pipefitting Industry of
the United States, Canada, and Australia (Plumbers
Union). The Carrs previously pled guilty to conspiracy
to embezzle labor union funds and embezzlement of
labor union funds.

Robert Carr was the financial secretary-treasurer
and business manager of the Plumbers Union, and
Theresa Carr worked at various times as an employee
of the union. By virtue of the offices he held in the
union, Robert Carr had access to the union’s checking
accounts and credit cards. Between January 2000
and May 2009, the Carrs wrote checks for numerous
unauthorized salary advances, bonuses, and fictitious
reimbursements. They also unlawfully used the
Plumbers Union checks and credit cards to pay for
goods and services for their personal benefit and
the benefit of their family. These included charges
for clothing, sporting goods, jewelry, meals, lodging,


42     Semiannual Report to Congress: April 1 – September 30, 2013
       Labor Racketeering




Departmental Management
                                 Departmental Management
                                      Departmental Management

Controls over Travel Card Accounts                                   and transactions that exceeded $75. Of the 174
Need Strengthening                                                   employee travel accounts reviewed, 25 employees
                                                                     violated federal travel regulations by not submitting
When a former senior-level employee notified us that                 required supporting receipts for transactions such as
he had received a new travel card after separating                   lodging, air-fare, and car rental. While we verified that
from DOL, we initiated a performance audit of the                    the transactions in question had occurred and were
Department’s travel card program to determine                        legitimate official business expenses, agency officials
whether it was being adequately administered. The                    approved vouchers for these trips in the absence of
Travel and Transportation Reform Act of 1998 requires                supporting receipts.
that government employees only use travel cards
for travel expenses when on official business. It is                 We made six recommendations to the chief financial
important to note that DOL reimburses travelers for                  officer (CFO) to address these weaknesses and
authorized expenses. Therefore, employees, not DOL,                  improve administration of the Department’s travel card
are responsible for paying their account balances.                   program. The CFO agreed that certain employees
                                                                     improperly incurred charges on their travel cards,
We reviewed travel card use by active employees                      but stated employees are responsible for charges
during FY 2011 through the first two quarters of FY                  and they do not represent a financial liability to
2012 and by separated employees who participated                     DOL. We agree with the CFO’s assertion; however,
in the program from FY 2009 through FY 2011 and                      any travel card accounts that remain open after
the first two quarters of FY 2012.                                   employee separation, are not closed in a timely
                                                                     manner, or are used inappropriately represent internal
Our audit found that DOL does not have adequate                      control deficiencies that should concern DOL in its
controls to administer the travel card program and                   management over the travel card program. The CFO
that improvements are needed to ensure that travel                   agreed with the recommendations and has planned
cards are used only for authorized purposes and are                  actions to address them. (Report No. 17-13-001-13-
canceled promptly when necessary. Specifically,                      001, September 9, 2013)
we found that 21 percent (37 of 174) of statistically
sampled travel card accounts of current employees                    Deficiencies Continue to Be Identified
incurred $50,094 in transactions while not on official               in the Department’s IT Security Program
travel, and 7 card accounts incurred $5,367 in                       DOL systems contain vital, sensitive information
unauthorized transactions while on official travel.                  that is central to the Department’s mission and to
In addition, 10 percent (934 of 8,959) of active                     the effective administration of its programs. These
employees reviewed had travel card accounts that                     systems are used to determine and house the
they had not used for at least a two year period, and                nation’s leading economic indicators, such as the
more than 79 percent (1,123 of 1,414) of travel card                 unemployment rate and the Consumer Price Index.
accounts of separated employees were not promptly                    They also maintain critical data related to areas that
canceled upon the employees’ separation, of which                    include law enforcement, worker safety and health,
198 took a year or more to be canceled.                              pensions, welfare benefits, job training services, and
                                                                     legal matters.
We also found that employees did not always
submit required supporting receipts for lodging


44     Semiannual Report to Congress: April 1 – September 30, 2013
                                     Departmental Management

As part of FY 2013 Federal Information Security
Management Act work completed by the end of
this reporting period, the OIG identified deficiencies
related to the following IT control families: access
control, audit and accountability, identification and
authentication, contingency planning, configuration
management, risk assessment, planning, personnel
security, security assessment and authorization,
incident response, and physical and environmental
controls.

Correcting deficiencies in a timely manner is an integral
part of management accountability. In FY 2013, we
performed testing to verify whether DOL agencies had
implemented prior-year IT security recommendations.
We found that the Department has continued making
progress in correcting IT security weaknesses, as 93
percent of the prior-year IT security recommendations
tested had been implemented successfully. (23-13-
010-01-100, September 26, 2013, 23-13-011-08-001,
September 24, 2013, 23-13-012-12-001, September
30, 2013, 23-13-013-06-001, September 30, 2013,
23-13-015-13-001, September 20, 2013, 23-13-017-
12-001, September 20, 2013, 23-13-018-11-001,
September 20, 2013, 23-13-019-06-001, September
24, 2013, 23-13-020-01-080, September 26, 2013,
23-13-021-01-001, September 30, 2013, 23-13-022-
01-060, September 26, 2013, 23-13-023-04-421,
September 26, 2013, 23-13-024-04-001, September
30, 2013, 23-13-025-03-001, September 26, 2013,
23-13-026-12-001, September 26, 2013, 23-13-027-
06-001, September 26, 2013)




                                                            Semiannual Report to Congress: April 1 – September 30, 2013   45
                                       Departmental Management


                                             Single Audits
     Office of Management and Budget (OMB) Circular A-133 describes audit requirements for state and local
  governments, colleges and universities, and nonprofit organizations receiving federal awards. Under A-133,
  covered entities that expend $500,000 or more per year in federal awards are required to obtain an annual
  organization wide audit that includes the auditor’s opinion on the entity’s financial statements and compliance
  with federal award requirements. Non-federal auditors, such as public accounting firms and state auditors,
  conduct these single audits. The OIG reviews the resulting audit reports for findings and questioned costs
  related to DOL awards, and to ensure that the reports comply with the requirements of A-133.



Single Audits Identify Material                                      During this reporting period, we conducted a quality
We a k n e s s e s a n d S i g n i f i c a n t                       control review (QCR) of AARP Foundation auditors’
                                                                     reports and supporting audit documentation. The
Deficiencies in 64 of 113 Reports
                                                                     purpose of the review was to determine whether (1)
                                                                     the audit was conducted in accordance with applicable
We reviewed 113 single audit reports this period,
                                                                     standards and met single audit requirements, (2) any
covering DOL expenditures of about $84 billion.
                                                                     follow-up audit work was needed, and (3) there were
These expenditures included about $8 billion related
                                                                     any issues that may require management’s attention.
to Recovery Act funding. The non-federal auditors
                                                                     In the QCR, we determined the audit work performed
issued 20 qualified opinions, 1 adverse opinion, and
                                                                     was acceptable and met single audit and A-133
1 disclaimer of opinion on awardees’ compliance with
                                                                     requirements. No follow-up work was required, and
federal grant requirements, their financial statements,
                                                                     there were no issues that required management’s
or both. In particular, the auditors identified 217 findings
                                                                     attention.
as material weaknesses or significant deficiencies
and more than $5 million in questioned costs in 64 of
113 reports reviewed, indicating improvements are
needed in those auditees’ management of DOL funds
and compliance with the requirements of major grant
programs. We reported these 217 findings and 251
related recommendations to DOL management for
corrective action.

Recipients expending more than $50 million a year
in federal awards are assigned a cognizant federal
agency for audit, and the cognizant agency is
responsible for conducting or obtaining quality control
reviews of selected A-133 audits. In FY 2013 DOL was
the cognizant agency for 19 recipients.



46     Semiannual Report to Congress: April 1 – September 30, 2013
Legislative Recommendations
                     Legislative Recommendations
     The Inspector General Act requires the OIG to review existing or proposed legislation and regulations
 and to make recommendations in the Semiannual Report concerning their impact both on the economy and
 efficiency of the Department’s programs and on the prevention of fraud and abuse. The OIG’s legislative
 recommendations have remained markedly unchanged over the last several semiannual reports, and the
 OIG continues to believe that the following legislative actions are necessary to increase efficiency and protect
 the Department’s programs.



Allow DOL Access to Wage Records                                     state UI wage records, SSA wage records, and NDNH
                                                                     data. While the OIG can currently use its subpoena
Wage records are a valuable source of information,                   authority to obtain state wage records, this process
both as an audit and program tool to reduce                          can be inefficient and untimely, and the OIG cannot
overpayments in employee benefit programs such                       use its subpoena authority for SSA or NDNH records.
as Unemployment Insurance (UI), the Federal
Employees’ Compensation Act (FECA), and Disaster                     Amend Pension Protection Laws
Unemployment Assistance, and as an investigative
resource to identify and combat fraud in Department                  Legislative changes to the Employee Retirement
programs.                                                            Income Security Act (ERISA) and criminal penalties
                                                                     for ERISA violations would enhance the protection
For example, states cross-match UI claims against                    of assets in pension plans. To this end, the OIG
National Directory of New Hires (NDNH) data, which                   recommends the following:
are maintained by the Department of Health and
Human Services, to better detect overpayments to                     • Expand the authority of the Employee Benefits
UI claimants who have gone back to work but continue                   Security Administration (EBSA) to correct
to collect UI benefits. However, the law (42 U.S.C.                    substandard benefit plan audits and ensure
653 (i)) does not permit DOL or the OIG access to                      that auditors with poor records do not perform
the NDNH.                                                              additional plan audits. Changes should include
                                                                       providing EBSA with greater enforcement authority
Moreover, access to Social Security Administration                     over registration, suspension, and debarment,
(SSA) wage records and state UI data would allow                       and the ability to levy civil penalties against
the Department to measure the long-term impact of                      employee benefit plan auditors. The ability to
employment and training services on job retention                      correct substandard audits and take action against
and earnings. Outcome information of this type for                     auditors is important because benefit plan audits
program participants is otherwise difficult to obtain.                 help protect participants and beneficiaries by

Accordingly, the Department and the OIG need
legislative authority to obtain complete access to


48     Semiannual Report to Congress: April 1 – September 30, 2013
                                  Legislative Recommendations

    ensuring the proper value of plan assets and                     believe the maximum penalty should be raised to
    computation of benefits.                                         10 years for all three violations to correspond with
                                                                     the 10-year penalty imposed by 18 U.S.C. § 669
• Repeal ERISA’s limited-scope audit exemption.                      (theft from health care benefit programs), to serve
  This provision excludes pension plan assets                        as a greater deterrent and further protect employee
  invested in financial institutions, such as banks                  pension plans.
  and savings and loans, from audits of employee
  benefit plans. The limited-scope audit prevents                Provide Authority to Ensure the
  independent public accountants who are auditing                Integrity of the H-1B Program
  pension plans from rendering an opinion on the
  plans’ financial statements in accordance with                 If DOL is to have a meaningful role in the H-1B specialty
  professional auditing standards. These “no opinion”            occupations foreign labor certification process, it must
  audits provide no substantive assurance of asset               have the statutory authority to ensure the integrity
  integrity to plan participants or the Department.              of that process, including the ability to verify the
                                                                 accuracy of information provided on labor condition
•    Require direct reporting of ERISA violations                applications. Currently, DOL is statutorily required to
    to DOL. Under current law, a pension plan auditor            certify such applications unless it determines them to
    who finds a potential ERISA violation is responsible         be “incomplete or obviously inaccurate.” Our concern
    for reporting it to the plan administrator, but not          with the Department’s limited ability to ensure the
    directly to DOL. To ensure that improprieties are            integrity of the certification process is heightened by
    addressed, we recommend that plan administrators             the results of OIG analysis and investigations that
    or auditors be required to report potential ERISA            show the program is susceptible to significant fraud
    violations directly to DOL. This would ensure the            and abuse, particularly by employers and attorneys.
    timely reporting of violations and would more
    actively involve auditors in safeguarding pension
                                                                 Improve the Integrity of the FECA
    assets, providing a first line of defense against the
                                                                 Program
    abuse of workers’ pension plans.

                                                                 The OIG believes reforms should be considered to
•		 Strengthen criminal penalties in Title 18 of the
                                                                 improve the effectiveness and integrity of the FECA
    United States Code. Three sections of U.S.C. Title
                                                                 program in the following areas:
    18 serve as the primary criminal enforcement tools
    for protecting pension plans covered by ERISA.
                                                                 •		 Statutory access to Social Security wage
    Embezzlement or theft from employee pension
                                                                     records and the NDNH. Currently, the Department
    and welfare plans is prohibited by Section 664;
                                                                     can access Social Security wage information only if
    making false statements in documents required
                                                                     the claimant gives it permission to do so, and it has
    by ERISA is prohibited by Section 1027; and
                                                                     no access to the NDNH. Granting the Department
    giving or accepting bribes related to the operation
                                                                     routine access to these databases would aid in
    of ERISA-covered plans is prohibited by Section
                                                                     the detection of fraud committed by individuals
    1954. Sections 664 and 1027 subject violators
    to up to five years’ imprisonment, while Section
    1954 calls for up to three years’ imprisonment. We


                                                            Semiannual Report to Congress: April 1 – September 30, 2013   49
                                    Legislative Recommendations

     receiving FECA wage loss compensation but failing                any accident occurring in a coal or other mine where
     to report income they have earned.                               rescue and recovery work is necessary, the Secretary
                                                                      or an authorized representative of the Secretary shall
•		 Benefit rates when claimants reach normal                         take whatever action he or she deems appropriate to
    federal or Social Security retirement age.                        protect the life of any person. Under Section 103(k),
    Alternate views have arisen as to whether and how                 the Mine Act states that an authorized representative
    benefit rates should be adjusted when beneficiaries               of the Secretary, when present, may issue such orders
    reach federal or Social Security retirement age.                  as he or she deem appropriate to ensure the safety
    The benefit rate structure for FECA should be                     of any person in the coal or other mine.
    reassessed to determine what an appropriate
    benefit should be for those beneficiaries who                     The primary purpose of the Mine Act is to give the
    remain on the FECA rolls into retirement. Careful                 Secretary the authority to take appropriate action—
    consideration is needed to ensure that the benefit                including ordering a mine closure—to protect lives.
    rates ultimately established will have the desired                As such, the OIG recommends a technical review of
    effect while ensuring fairness to injured workers,                the existing language under Section 103(k) to ensure
    especially those who have been determined to                      that MSHA’s long-standing and critically important
    be permanently injured and thus unable to return                  authority to take whatever actions may be necessary,
    to work.                                                          including issuing verbal mine closure orders, to protect
                                                                      miner health and safety is clear and not vulnerable
•		 Three-day waiting period. The FECA legislation                    to challenge.
    provides for a three-day waiting period intended to
    discourage the filing of frivolous claims. As currently
    written, the legislation places the waiting period at
    the end of the 45-day continuation of pay period,
    thereby negating its purpose. Legislation passed
    in 2006 placed the waiting period immediately after
    an employment-related injury for postal employees.
    If the intent of the law is to have a true waiting
    period before applying for benefits, then it should
    likewise come immediately after an employment-
    related injury for all workers.


Clarify MSHA’s Authority to Issue
Verbal Mine Closure Orders

The Mine Safety and Health Act of 1977 (Mine Act)
charges the Secretary of Labor with protecting
the lives and health of workers in coal and other
mines. To that end, the Mine Act contains provisions
authorizing the Secretary to issue mine closure orders.
Specifically, Section 103(j) states that in the event of


50      Semiannual Report to Congress: April 1 – September 30, 2013
Appendices
                                                                                        Appendices
Reporting Requirements Under the Following Acts:

                             Inspector General Act of 1978

 REPORTING             REQUIREMENT                                                         PAGE


 Section 4(a)(2)       Review of Legislation and Regulation                                 48

 Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                      ALL

 Section 5(a)(2)       Recommendations with Respect to Significant
                       Problems, Abuses, and Deficiencies                                  ALL

 Section 5(a)(3)       Prior Significant Recommendations on Which
                       Corrective Action Has Not Been Completed                             60

 Section 5(a)(4)       Matters Referred to Prosecutive Authorities                          61

 Section 5(a)(5) and   Summary of Instances Where Information Was Refused                 NONE
 Section 6(b)(2)

 Section 5(a)(6)       List of Audit Reports                                                55

 Section 5(a)(7)       Summary of Significant Reports                                      ALL

 Section 5(a)(8)       Statistical Tables on Management Decisions on Questioned Costs       54

 Section 5(a)(9)       Statistical Tables on Management Decisions on Recommendations
                       That Funds Be Put to Better Use                                      53

 Section 5(a)(10)      Summary of Each Audit Report Over Six Months Old for
                       Which No Management Decision Has Been Made                           60

 Section 5(a)(11)      Description and Explanation of Any Significant
                       Revised Management Decision                                        NONE

 Section 5(a)(12)      Information on Any Significant Management Decisions
                        With Which the Inspector General Disagrees                        NONE

  Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010

 Section 3(d)          Peer Review Reporting                                                62

                   American Recovery and Reinvestment Act of 2010


 Section 1553(b)(2)(B)(iii) Whistleblower Reporting                                         63
s
                                                                  Appendix

                      Funds Recommended for Better Use
                                                                                  
                                                  Funds Put to a Better Use* Agreed to by DOL
                                                                                                                        Number
                                                                                                                                      Dollar Value
                                                                                                                          of
                                                                                                                                      ($ millions)
                                                                                                                        Reports
    For which no management decision had been made as of the commencement of the reporting period                            1                  42.1
    Issued during the reporting period                                                                                       3                 440.4
    Subtotal                                                                                                                 4                 482.5
    For which management decision was made during the reporting period:
       Dollar value of recommendations that were agreed to by management                                                      2               471.0
       Dollar value of recommendations that were not agreed to by management                                                                    0.0
    For which no management decision had been made as of the end of the reporting period                                       2                11.5


                                                 Funds Put to a Better Use Implemented by DOL
                                                                                                                        Number
                                                                                                                                      Dollar Value
                                                                                                                          of
                                                                                                                                      ($ millions)
                                                                                                                        Reports
    For which final action had not been taken as of the commencement of the reporting period                                 6                 344.5
    For which management or appeal decisions were made during the reporting period                                           2                 471.0
    Subtotal                                                                                                                 8                 815.5
    For which final action was taken during the reporting period:
       Dollar value of recommendations that were actually completed                                                           0                     0.0
       Dollar value of recommendations that management has subsequently concluded should not or could
                                                                                                                                                     0.0
        not be implemented or completed
    For which no final action had been taken by the end of the period                                                          8               815.5

               
       * The term “recommendation that funds be put to better use” means a recommendation by the OIG that funds could be used more
       efficiently or achieve greater program effectiveness if management took actions to implement and complete the recommendation. This
       term is defined by the Inspector General Act and includes, among other things, reductions in future outlays; deobligation of funds from
       programs or operations; costs not incurred in the future by implementing recommended improvements related to the operations of the
       establishment, a contractor or grantee; and any other savings specifically identified, including reverting funds to the U.S. Treasury to be
       used for other purposes.




                                                                         Semiannual Report to Congress: April 1 – September 30, 2013          53
                                                               Appendix

                                             Questioned Costs
           
                                                   Resolution Activity: Questioned Costs*
                                                                                                                      Number        Questioned
                                                                                                                        of             Costs
                                                                                                                      Reports       ($ millions)
For which no management decision had been made as of the commencement of the reporting period (as
                                                                                                                             11                   9.8
adjusted)
Issued during the reporting period (not including single audits)                                                              2                8.3
Single audits                                                                                                                19                5.5
Subtotal                                                                                                                     32               23.6
For which a management decision was made during the reporting period:
   Dollar value of disallowed costs                                                                                                           0.7
   Dollar value of costs not disallowed                                                                                                       0.5
For which no management decision had been made as of the end of the reporting period                                         21               22.4
For which no management decision had been made within six months of issuance                                                  3                9.1


                                                     Closure Activity: Disallowed Costs
                                                                                                                                     Disallowed
                                                                                                                      Number
                                                                                                                                        Costs
                                                                                                                     of Reports
                                                                                                                                     ($ millions)
For which final action had not been taken as of the commencement of the reporting period (as adjusted)                      54                31.9
For which management or appeal decisions were made during the reporting period                                               4                 0.7
Subtotal                                                                                                                    58                32.6
For which final action was taken during the reporting period:
   Dollar value of disallowed costs that were recovered                                                                                          0.1
   Dollar value of disallowed costs that were written off by management                                                                          5.3
   Dollar value of disallowed costs that entered appeal status
For which no final action had been taken by the end of the reporting period                                                 54                27.2

             by the IG Act, question costs include alleged violations of law, regulations, contracts, grants or agreements; costs not supported
   *As defined
   by adequate documentation; or the expenditure of funds for an intended purpose that was unnecessary or unreasonable. Disallowed
   costs are costs that the OIG questioned during an audit as unsupported or unallowable and the Grant/Contracting Officer has determined
   the auditee should repay. The Department is responsible for collecting the debts established. The amount collected may be less than the
   amount disallowed, and monies recovered usually cannot be used to fund other program operations and are returned to the U.S. Treasury.




   54      Semiannual Report to Congress: April 1 – September 30, 2013
                                                      Appendix

                             Final Audit Reports Issued
                                                                
                                                                                                                   Funds Put
                                                                          # of Nonmonetary        Questioned
                              Report Name                                                                           to Better
                                                                          Recommendations          Costs ($)
                                                                                                                     Use ($)
                                              Employment and Training Programs
Trade Adjustment Assistance Program
Recovery Act: Required Employment and Case Management Services
Under the Trade and Globalization Adjustment Assistance Act of 2009;               4                           0               0
Report No. 18-13-003-03-330; 08/06/13
Indian and Native American Programs
Navajo Nation Did Not Adequately Manage Workforce Investment Act
Grants and Could Serve More Participants With Available Funds; Report              3                  8,000,000     11,200,000
No. 02-13-202-03-355; 09/30/13
Job Corps Program
The U.S. Department of Labor's Employment and Training Administration
Needs to Strengthen Controls over Job Corps Funds; Report No. 22-13-              13                           0               0
015-03-370; 05/31/13
Job Corps National Contracting Needs Improvement to Ensure Best Value,
                                                                                   3                    351,207                0
Report No. 26-13-004-03-370; 09/27/13
Workforce Investment Act
Improvements Are Needed By the Northwest Pennsylvania Workforce
Investment Board to Ensure Services Are Documented and Participants
                                                                                   4                           0               0
Find Jobs Related to the Training Received; Report No. 03-13-002-03-390;
09/30/13
Goal Totals ( 5 Reports)                                                          27                  8,351,207     11,200,000
                                                     Worker Benefit Programs
Federal Employees’ Compensation Act
Service Auditor's Report on the Integrated Federal Employees'
Compensation System and Service Auditor's Report on the Central Bill
                                                                                   0                           0               0
Processing System for the period October 1, 2012 to March 31, 2013;
Report No. 22-13-008-04-431; 08/23/13
Employee Benefits Security Administration
EBSA Needs to Provide Additional Guidance and Oversight to ERISA
Plans Holding Hard to Value Alternative Investments; Report No. 09-13-             6                           0               0
001-12-121; 09/30/13
Goal Totals (2 Reports)                                                            6                           0               0
                                          Worker Safety, Health, and Workplace Rights
Mine Safety and Health
MSHA Should Continue to Reassess and Make Improvements to Its Role
                                                                                   3                           0          326,308
in Mine Rescue Contests; Report No. 05-13-004-06-001; 09/30/13
MSHA Can Improve Its Section 110 Special Investigations Process; Report
                                                                                   3                           0               0
No. 05-13-008-06-001; 09/30/13
Occupational Safety and Health
Recovery Act: OSHA Activities Under The Recovery Act; Report No.18-13-
                                                                                   2                           0               0
004-10-105; 07/16/13
Goal Totals (3 Reports)                                                            8                           0          326,308
                                                    Departmental Management
Office of the Chief Financial Officer
Controls Over Travel Card Accounts Need Strengthening; Report No. 17-
                                                                                  6                            0               0
13-001-13-001; 09/13/13
Management Advisory Comments Identified in an Audit of the Consolidated
Financial Statements For the Year Ended September 30, 2012; Report No.            32                           0   428,900,000
22-13-006-13-001; 06/04/13
Goal Totals ( 2 Reports)                                                          38                          0    428,900,000
Final Audit Report Totals (12 Reports)                                            79                  8,351,207    440,426,308

                                                            Semiannual Report to Congress: April 1 – September 30, 2013      55
                                                            Appendix

                                                   Other Reports
                                                                      
                                                                                           # of Nonmonetary   Questioned
                                        Report Name
                                                                                           Recommendations     Costs $
                                                   Employment and Training Programs
Disability Employment Policy
Verification of Office of Disability Employment Policy Remediation Efforts of Prior-Year
Information Technology Security Recommendations; Report No. 23-13-020-01-080;
                                                                                                  0                        0
09/26/13
Older Workers Program
Quality Control Review Single Audit of AARP Foundation for the Year Ended December 31,
                                                                                                  0                        0
2012; Report No. 24-13-010-03-360; 07/26/13
Employment and Training—Multiple Programs
Verification of ETA Remediation Efforts for Prior-Year Information Technology Security
                                                                                                  0                        0
Recommendations; Report No. 23-13-025-03-001; 09/27/13
Bureau of Labor Statistics
Verification of BLS Remediation Efforts of Prior-Year Information Technology Security
                                                                                                  0                        0
Recommendations; Report No. 23-13-018-11-001; 09/20/13
Goal Totals (4 Reports)                                                                           0                        0
                                                        Worker Benefit Programs
Benefit Review Board
Fiscal Year 2013 Federal Information Security Management Act: Appeals Management
System Testing; Report No. 23-13-010-01-100; 09/27/13                                             2                        0
Office of Workers’ Compensation Programs
Verification of OWCP Remediation Efforts of Prior-Year Information Technology Security
                                                                                                  0                        0
Recommendations; Report No. 23-13-024-04-001; 09/30/13
Employee Benefits Security Administration
Fiscal Year 2013 Federal Information Security Management Act: EBSA General Support
System Testing; Report No. 23-13-012-12-001; 09/30/13                                             2                        0
Verification of EBSA Remediation Efforts of Prior-Year Information Technology Security            0
Recommendations; Report No. 23-13-017-12-001; 09/20/13                                                                     0
Fiscal Year 2013 Federal Information Security Management Act: Employee Retirement
Income Security Act Filing Acceptance System Testing; Report No. 23-13-026-12-001;
                                                                                                  2                        0
09/26/13
Goal Totals (5 Reports)                                                                           6                        0
                                             Worker Safety, Health, and Workplace Rights
Office of Labor Management Standards
Verification of Office of Labor Management Standards Remediation Efforts of Prior-Year
Information Technology Security Recommendations; Report No. 23-13-023-04-421;
                                                                                                  0                        0
09/26/13
Mine Safety and Health Administration
Fiscal Year 2013 Federal Information System Management Act: Mine Safety and Health
Administration General Support System Testing; Report No. 23-13-013-06-001; 09/30/13              2                        0
Verification of MSHA Remediation Efforts of Prior-Year Information Technology Security
Recommendations; Report No. 23-13-019-06-001; 09/24/13                                            0                        0
Fiscal Year 2013 Federal Information System Management Act: Mine Safety and Health
Administration Standard Information System Testing; Report No. 23-13-027-06-001;
                                                                                                  2                        0
09/27/13
Goal Totals ( 4 Reports)                                                                          4                        0
                                                




  56         Semiannual Report to Congress: April 1 – September 30, 2013
                                                         Appendix

                               Other Reports, continued
                                                   Departmental Management
Office of Public Affairs
Verification of Office of Public Affairs Remediation Efforts for Prior-Year Information
Technology Security Recommendations; Report No. 23-13-021-01-001; 09/30/13                           0                            0
Office of Administrative Law Judges
Verification of Office of Administrative Law Judges Remediation Efforts of Prior-Year
Information Technology Security Recommendations; Report No. 23-13-022-01-060;
                                                                                                     0                            0
09/26/13
Office of the Assistant Secretary for Administration and Management
Summary of Findings Related to Selected Systems Tested During the FY 2012
Consolidated Financial Statement Audit and the Statement on SSAE No. 16 SOC 1
                                                                                                     0                            0
Examination for the Period October 1, 2011, through June 30, 2012; Report No. 22-13-007-
07-001; 04/03/13
Office of the Solicitor
Fiscal Year 2013 Federal Information Security Management Act: Matter Management
                                                                                                     2                            0
System Testing; Report No. 23-13-011-08-001; 09/24/13
Office of the Chief Financial Officer
Verification of OCFO Remediation Efforts of Prior-Year Information Technology Security
                                                                                                     0                            0
Recommendations Report; Report No. 23-13-015-13-001; 09/20/13
Goal Totals (5 Reports)                                                                              2                            0
Other Report Totals (18 Reports)                                                                    12                            0

           
                                             




                                                               Semiannual Report to Congress: April 1 – September 30, 2013   57
                                                       Appendix

                    Single Audit Reports
                                     
                                         Processed
                                                                                             # of Nonmonetary   Questioned
                                 Program/Report Name
                                                                                             Recommendations     Costs ($)
State of Georgia; Report No. 24-13-552-03-315; 04/08/13                                              7              12,922
State of Missouri; Report No. 24-13-561-03-315; 04/08/13                                             1                     0
State of Colorado; Report No. 24-13-563-03-315; 04/08/13                                             2                  410
State of Connecticut; Report No. 24-13-570-03-390; 04/08/13                                         11                     0
Youthbuild Lake County, Inc.; Report No. 24-13-553-03-340; 04/12/13                                  2                     0
Commonwealth of Puerto Rico Department of Labor and Human Resources –
                                                                                                    12                    0
Unemployment Insurance Service; Report No. 24-13-555-03-315; 04/15/13
Commonwealth of Puerto Rico Department of Labor and Human Resources – Veterans
                                                                                                    2                     0
Employment and Training; Report No. 24-13-556-02-201; 04/15/13
Metro United Methodist Urban Ministry; Report No. 24-13-554-03-390; 04/17/13                        1                     0
State of Texas c/o Controller of Public Accountants; Report No. 24-13-557-03-390; 04/22/13          1                     0
State of Delaware; Report No. 24-13-558-03-390; 04/22/13                                            7                14,995
Commonwealth of Kentucky; Report No. 24-13-559-03-315; 04/26/13                                     1                     0
State of Louisiana; Report No. 24-13-560-03-315; 04/26/13                                           2                29,004
Young Adult Development in Action, Inc.; Report No. 24-13-564-03-390; 05/08/13                      1                10,821
State of California; Report No. 24-13-562-03-315; 05/09/13                                          6                     0
State of Maine; Report No. 24-13-565-03-315; 05/09/13                                               2                     0
State of Vermont; Report No. 24-13-566-03-315; 05/16/13                                             3                79,007
State of Tennessee; Report No. 24-13-568-03-315; 05/16/13                                           12            1,153,326
State of Hawaii, Department of Accounting and General Services; Report No. 24-13-571-03-
                                                                                                    7                     0
315; 05/16/13
State of Washington c/o Office of Financial Management; Report No. 24-13-572-03-315;
                                                                                                    2               440,925
05/17/13
State of Rhode Island and Providence Plantations; Report No. 24-13-573-03-315; 05/20/13             6                     0
Workforce, Inc. D/B/A Recycle Force; Report No. 24-13-574-03-390; 05/22/13                          2                     0
State of Oregon; Report No. 24-13-575-03-390; 05/22/13                                              4               267,748
New Mexico Department of Workforce Solutions – Unemployment Insurance Service; Report
                                                                                                    5                     0
No. 24-13-583-03-315; 05/23/13
New Mexico Department of Workforce Solutions – Veterans Employment and Training;
                                                                                                    3                     0
Report No. 24-13-585-02-201; 05/23/13
State of New Jersey; Report No. 24-13-578-03-390; 05/28/13                                          2                     0
State of Iowa; Report No. 24-13-580-03-390; 05/28/13                                                1                     0
State of Alaska; Report No. 24-13-586-03-390; 05/28/13                                              3                14,749
State of Hawaii Department of Labor and Industrial Relations; Report No. 24-13-589-03-315;
                                                                                                    2                     0
05/28/13
State of West Virginia; Report No. 24-13-590-03-315; 05/28/13                                       1                     0
State of Ohio; Report No. 24-13-591-03-315; 05/28/13                                                1                     0
State of Oklahoma; Report No. 24-13-592-03-315; 05/28/13                                            1                     0
State of Nebraska; Report No. 24-13-576-03-390; 05/29/13                                            7                 4,477
AARP Foundation; Report No. 24-13-593-03-390; 05/29/13                                              1                     0
SER Jobs for National Progress; Report No. 24-13-577-03-390; 06/03/13                               1               124,427
Providence Health Foundation; Report No. 24-13-579-03-390; 06/03/13                                 1                     0
Learning Works; Report No. 24-13-581-03-315; 06/03/13                                               2                     0
State of Florida; Report No. 24-13-587-03-390; 06/03/13                                             4                     0
State of Idaho; Report No. 24-13-588-03-390; 06/03/13                                               1                     0
State of Kansas; Report No. 24-13-582-03-315; 06/17/13                                              3                62,618
          


58     Semiannual Report to Congress: April 1 – September 30, 2013
                                                      Appendix

    Single Audit Reports Processed, continued
State of South Dakota; Report No. 24-13-596-03-315; 06/17/13                                          3                          0
American Indian Community House, Inc.; Report No. 24-13-597-03-355; 06/17/13                          3                          0
Governor’s State University; Report No. 24-13-598-03-390; 06/17/13                                    1                          0
Goodwill Industries of the Inland Northwest; Report No. 24-13-599-02-201; 06/17/13                    1                          0
Commonwealth of Pennsylvania; Report No. 24-13-600-03-315; 06/24/13                                   7                          0
State of Nevada; Report No. 24-13-601-03-315; 06/24/13                                                6                      2,176
Housing Authority of East Baton Rouge Parish; Report No. 24-13-584-03-315; 07/15/13                   1                          0
Covenant House of New Jersey; Report No. 24-13-594-03-390; 07/15/13                                   1                          0
City of Richmond; Report No. 24-13-602-03-390; 07/15/13                                               5                    222,740
University of Illinois; Report No. 24-13-603-10-001; 07/15/13                                         9                          0
California Veterans Assistance Foundation, Inc.; Report No. 24-13-604-02-201; 07/23/13                2                          0
Mississippi Action for Community Education, Inc.; Report No. 24-13-605-03-315; 07/23/13               1                          0
State of Arizona; Report No. 24-13-569-03-315; 08/02/13                                               2                          0
State of Illinois Governor’s Office of Management and Budget; Report No. 24-13-606-03-315;
                                                                                                      4                         0
08/02/13
Berkshire Union Free School District; Report No. 24-13-607-03-390; 08/02/13                           3                    139,629
Mescalero Apache Tribe; Report No. 24-13-608-03-390; 08/02/13                                         1                          0
South Carolina Department of Employment Workforce; Report No. 24-13-609-03-315;
                                                                                                      3                         0
08/02/13
The Navajo Nation; Report No. 24-13-595-03-390; 08/05/13                                              1                       0
State of New Hampshire; Report No. 24-13-610; 08/06/13                                                4                       0
State of Indiana; Report No. 24-13-611-03-315; 08/21/13                                               2                       0
Government of the District of Columbia; Report No. 24-13-612-03-315; 09/04/13                         3                       0
State of Michigan; Report No. 24-13-613-03-315; 09/04/13                                              2                  17,755
Territory of American Samoa; Report No. 24-13-614-03-390; 09/12/13                                    3               2,538,651
State of North Carolina; Report No. 24-13-615-03-390; 09/19/13                                        6                       0
Center for Community Alternatives; Report No. 24-13-616-03-390; 09/23/13                              2                       0
State of Minnesota; Report No. 24-13-617-03-315; 09/26/13                                             5                 315,248
Single Audit Report Totals (65 Reports)                                                              214              5,451,628

                                                                                                       




                                                             Semiannual Report to Congress: April 1 – September 30, 2013     59
                                                                                                                           46 
                                                        Appendix

     Unresolved Audit Reports
                              Over Six Months Old
      
                                                                             # of Nonmonetary        Questioned
 Agency                                 Report Name
                                                                             Recommendations          Costs ($)
                                  Nonmonetary Recommendations and Questioned Costs
                                  Status Changed to Unresolved Based on Follow-Up Work
           Selected ESA Information Technology Systems That Support the FY
 OWCP                                                                                      1                     0
           2005 Financial Statements; Report No. 23-06-003-04-001; 01/23/06
         Final Management Decision/Final Determination Issued Did Not Resolve; OIG Negotiating with Agency
           MSHA’s Accountability Program Faces Challenges, But Makes
 MSHA                                                                                      1                     0
           Improvements; Report No. 05-12-002-06-001; 09/28/12
           OIG Audit of OLMS Compliance Audit Program; Report No. 09-12-
 OLMS                                                                                      1                     0
           001-04-421; 09/13/12
           MSHA Has Improved Its Roof Control Plan Review and Monitoring
 MSHA      Process But Could Do More; Report No. 05-13-002-06-001;                         1                     0
           03/29/13
                       Final Determination Not Issued by Grant/Contracting Officer by Close of Period
           Black Veterans for Social Justice; Report No. 24-12-514-02-201;
 VETS                                                                                      1                     0
           04/06/12
           Goodwill Industries of Greater Rapids, Inc.; Report No. 24-12-548-
 VETS                                                                                      2                40,000
           02-201; 03/19/12
           District of Columbia Department of Employment Services Did Not
 ETA       Have Adequate Controls for the Financial Management of Funds for                2             8,853,820
           Grants Awarded By ETA; Report No. 03-13-001-03-315; 03/27/13
           National Academy of Sciences; Report No. 24-12-619-03-390;
 ETA                                                                                       1                     0
           08/24/12
           Puerto Rico Department of Labor and Human Resources; Report
 VETS                                                                                      2                     0
           No. 24-13-547-02-001; 03/14/13
 ETA       Town of Guadalupe; Report No. 24-13-519-03-390; 12/27/13                        3               222,598
 VETS      University of Puerto Rico; Report No. 24-13-523-02-201; 01/03/13                4                     0
           Harlem Children’s Zone, Inc. and Subsidiaries; Report No. 24-13-
 ETA                                                                                       2                     0
           526-03-390; 01/08/13
           Way Station, Inc. & Subsidiary; Report No. 24-13-539-02-001;
 VETS                                                                                      2                     0
           02/26/13
           New Mexico Institute of Mining and Technology; Report No. 24-13-
 MSHA                                                                                      1                     0
           540-06-001; 02/26/13
                                  Final Decision Not Issued by Agency by Close of Period
           Changes Are Still Needed in the ERISA Audit Process to Increase
 EBSA      Protection for Employee Benefit Plan Participants; Report No. 09-12-            5                     0
           002-12-121; 09/28/12
 Total Nonmonetary Recommendations, Questioned Costs                                      29             9,116,418
                                                    Other Monetary Impact
              Final Management Decision Issued by Agency Did Not Resolve; OIG Negotiating with Agency
           OSHA Needs to Evaluate and Use of Hundreds of Millions of Dollars
           in Penalty Reductions as Incentives for Employers to Improve
                                                                                           2           318,200,000
 OSHA      Workplace Safety and Health; Report No. 02-10-201-10-105;
           09/30/10
 Total Other Monetary Impact                                                               2           318,200,000
 Total Nonmonetary Recommendations, Questioned Costs, and Other
                                                                                          31           327,316,418
 Monetary Impact




60       Semiannual Report to Congress: April 1 – September 30, 2013
                                                           Appendix

                                     Investigative Statistics
                                                                     
                                                                                                     Division
                                                                                                                          Total
                                                                                                      Totals
Cases Opened:                                                                                                              248
Program Fraud                                                                                          196
Labor Racketeering                                                                                      52
Cases Closed:                                                                                                              253
Program Fraud                                                                                          198
Labor Racketeering                                                                                      55
Cases Referred for Prosecution:                                                                                            204
Program Fraud                                                                                          166
Labor Racketeering                                                                                      38
Cases Referred for Administrative/Civil Action:                                                                            106
Program Fraud                                                                                           98
Labor Racketeering                                                                                       8
Indictments:                                                                                                               257
Program Fraud                                                                                          206
Labor Racketeering                                                                                      51
Convictions:                                                                                                               293
Program Fraud                                                                                          240
Labor Racketeering                                                                                      53
Debarments:                                                                                                                 14
Program Fraud                                                                                            3
Labor Racketeering                                                                                      11
Recoveries, Cost-Efficiencies, Restitutions, Fines/Penalties, Forfeitures, and Civil
Monetary Actions:                                                                                                          $36,867,692
Program Fraud                                                                                       $33,268,238
Labor Racketeering                                                                                   $3,599,454

Recoveries: The dollar amount/value of an agency’s action to recover or to reprogram funds or to make other
adjustments in response to OIG investigations                                                                               $2,225,864
Cost-Efficiencies: The one-time or per annum dollar amount/value of management’s commitment, in response to
OIG investigations, to utilize the government’s resources more efficiently                                                  $5,017,161
Restitutions/Forfeitures: The dollar amount/value of restitutions and forfeitures resulting from OIG criminal
investigations                                                                                                             $23,505,664
Fines/Penalties: The dollar amount/value of fines, assessments, seizures, investigative/court costs, and other
penalties resulting from OIG criminal investigations                                                                        $2,718,798
Civil Monetary Actions: The dollar amount/value of forfeitures, settlements, damages, judgments, court costs, or
other penalties resulting from OIG criminal investigations                                                                  $3,400,205
Total:                                                                                                                     $36,867,692




                                                                   Semiannual Report to Congress: April 1 – September 30, 2013
                                                                                                                            1     61
                                                                
                                                     Appendix

                              Peer Review Reporting
    The following meets the requirement under Section 989C of the Dodd–Frank Wall Street Reform and
 Consumer Protection Act (P.L. 111-203) that the Inspectors General include their peer review results as
 an appendix to each semiannual report. Federal audit functions can receive a rating of “pass,” “pass with
 deficiencies,” or “fail.” Federal investigation functions can receive a rating of “compliant” or “noncompliant.”



Peer Review of DOL-OIG Audit Function

The Social Security Administration–OIG conducted a peer review of the system of quality control for DOL-OIG’s
audit function for FY 2012. The peer review report, which was issued on March 15, 2013, resulted in an opinion
that the system of quality control was suitably designed and provided reasonable assurance of DOL-OIG’s
conforming to professional standards in its conduct of audits. The peer review gave DOL-OIG a pass rating and
made no recommendations.


Peer Review of DOL-OIG Investigative Function

In FY 2013, the Department of Homeland Security–OIG conducted a peer review of the system of internal
safeguards and management procedures for DOL-OIG’s investigative function for the period ending March 31,
2013. This peer review, which concluded in September 2013, found DOL-OIG to be compliant and did not identify
any observations, findings, or deficiencies. This peer review recognized a best practice in case management.


DOL-OIG Peer Review of DOJ-OIG Investigative Function

DOL-OIG conducted an external peer review of the Department of Justice (DOJ)–OIG’s system of internal
safeguards and management procedures for the investigative function for the period ending October 31, 2012. This
peer review, which concluded in April 2013, found DOJ-OIG to be compliant and did not identify any observations,
findings, or deficiencies. This peer review recognized four best practices–two in computer forensics, one in case
management, and one in training.




62    Semiannual Report to Congress: April 1 – September 30, 2013
                                                 Appendix

                          Whistleblower Reporting
    Under the American Recovery and Reinvestment Act of 2009 (Recovery Act) (P.L. 111-5), an employee of
 any non-federal employer receiving covered Recovery Act funds may not be discharged, demoted, or otherwise
 discriminated against as a reprisal for disclosing information that the employee reasonably believes is evidence
 of (1) gross mismanagement of an agency contract or grant relating to covered funds; (2) a gross waste of
 covered funds; (3) a substantial and specific danger to public health or safety related to the implementation
 or use of covered funds; (4) an abuse of authority related to the implementation or use of covered funds; or
 (5) a violation of law, rule, or regulation related to an agency contract or grant awarded or issued relating to
 covered funds. Further, the Recovery Act states that any person who believes he or she has been subjected
 to a prohibited reprisal may submit a complaint to the appropriate OIG, and the OIG must, subject to several
 limited exceptions, investigate the complaint and submit a report to the agency head.

    The following meets the requirements under this act that the Inspectors General include in each semiannual
 report a list of those investigations for which the Inspector General received an extension beyond the applicable
 180-day period to conduct an investigation and submit a report (Section 1553(b)(2)(B)(iii)) and a list of those
 investigations the Inspector General decided not to conduct or continue (Section 1553(b)(3)(C)).



The OIG decided not to conduct two Recovery Act whistleblower investigations during this semiannual reporting
period:

First, an individual submitted a complaint to the OIG claiming that his firm’s contract to provide weatherization
services was terminated as a result of disclosures that he made regarding waste, fraud, and abuse with respect
to the expenditure of Recovery Act funds. The OIG determined that the Recovery Act funds in question were
appropriated to the Department of Energy, and the OIG advised the individual to contact the Department of
Energy–OIG about his retaliation complaint.

Second, an individual submitted a complaint to the OIG claiming that he had reported fraud with respect to the
activities of a workforce development company that received Recovery Act funds, that he was subsequently
terminated from his position with the company, and that company officials have undermined his efforts to obtain
other employment in this field. As reported in the previous DOL-OIG Semiannual Report to Congress, the
OIG and the individual agreed to an extension of the 180-day period for the OIG to conduct an investigation
and submit a report the Secretary of Labor. During this reporting period, the OIG confirmed that the workforce
development company in question was no longer an ongoing operation and was operating only to dispose of
property and undertake other closeout actions. Further, the company was not receiving any additional funds
from the Department of Labor. Accordingly, there did not appear to be a viable remedy under the Recovery Act
whistleblower provisions, and the OIG closed its investigation.




                                                       Semiannual Report to Congress: April 1 – September 30, 2013   63
                                                             Appendix

                                                     OIG Hotline
    The OIG Hotline provides a communication link between the OIG and persons who want to report alleged
 violations of laws, rules, and regulations; mismanagement; waste of funds; abuse of authority; or danger to
 public health and safety. During the reporting period April 1, 2013, through September 30, 2013, the OIG
 Hotline received a total of 1,400 contacts. Of these, 209 were referred for further review and/or action.


      

 Complaints Received (by Method Reported):                                                                                         Totals
 Telephone                                                                                                                            889
 E-Mail/Internet                                                                                                                      369
 Mail                                                                                                                                 115
 Fax                                                                                                                                    26
 Walk-In                                                                                                                                 1
 Total                                                                                                                              1,400

 Complaints Received (by Source):                                                                                                  Totals
 Complaints from Individuals or Nongovernment Organizations                                                                         1,358
 Complaints/Inquiries from Congress                                                                                                      7
 Referrals from GAO                                                                                                                      7
 Complaints from Other DOL Agencies                                                                                                     16
 Complaints from Other (Non-DOL) Government Agencies                                                                                    12
 Total                                                                                                                              1,400

 Disposition of Complaints:                                                                                                        Totals
 Referred to OIG Components for Further Review and/or Action                                                                            56
 Referred to DOL Program Management for Further Review and/or Action                                                                   122
 Referred to Non-DOL Agencies / Organizations                                                                                           31
 No Referral Required / Informational Contact                                                                                        1,224
 Total                                                                                                                              1,433*
                                                                                                                                
      
* During this reporting period, the Hotline office referred several individual complaints to multiple offices or entities for review (e.g.,
to OIG components, or to an OIG component and DOL program management and/or a non-DOL agency).




64       Semiannual Report to Congress: April 1 – September 30, 2013
Office of Inspector General, U.S. Department of Labor
             200 Constitution Avenue, NW
                     Room S-5506
                Washington, DC 20210


               http://www.oig.dol.gov/
                  Office of Inspector General
               United States Department of Labor


  Report Fraud, Waste, and Abuse

             Call the Hotline
     202.693.6999      800.347.3756
             Email: hotline@oig.dol.gov
               Fax: 202.693.7020




  The OIG Hotline is open to the public and to Federal employees
 24 hours a day, 7 days a week to receive allegations of fraud, waste,
and abuse concerning Department of Labor programs and operations.

                             OIG Hotline
                       U.S. Department of Labor
                      Office of Inspector General
                     200 Constitution Avenue, NW
                             Room S-5506
                        Washington, DC 20210
